      FEDERAL ELECTION COMMISSION 


      OFFICE OF INSPECTOR GENERAL 





                 FINAL REPORT 


2010 Follow-up Audit of Privacy and Data Protection 





                 March 2011 

           ASSIGNMENT No. OIG-10-03 

                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:            The Commission

FROM:          Inspector General

SUBJECT:       Follow-up Audit of Privacy and Data Protection

DATE:          March 31, 2011

This memorandum transmits the Federal Election Commission (FEC) Office of Inspector
General’s (OIG) final report of the Follow-up Audit of Privacy and Data Protection
prepared by Cherry, Bekaert & Holland (CBH). The OIG contracted with CBH to
perform a follow-up audit on the findings and recommendations identified in the 2006
Inspection Report on Personally Identifiable Information and the 2007 Performance
Audit of Privacy and Data Protection. CBH’s objective was to determine whether
management implemented the agreed upon actions for each recommendation and whether
each audit finding in the two prior reports have been fully resolved.

Audit Findings and Recommendations

CBH’s review identified that management has made some improvements since the 2006
Inspection Report on Personally Identifiable Information [PII] and 2007 Performance
Audit of Privacy and Data Protection. However, sixteen (16) of nineteen (19) previous
recommendations are still open and new recommendations have been added. Thus,
several existing and emerging risks to PII, and privacy and data protection have not been
identified and addressed.

Significant issues within this report address the progress of the FEC’s privacy and data
protection program, and the protection of PII within the agency. The FEC’s current
governance structure over the privacy and data protection program consists of the Co-
Chief Privacy Officers (CPOs) who share privacy and data protection responsibilities.
This approach of shared responsibilities, along with the CPOs’ other full-time
responsibilities, prevents efficient and effective progress of the privacy and data
protection program. Without one full-time person committed to ensuring: (1) proper
handling of PII within the agency; (2) the FEC adheres to all required federal regulations;
and (3) adequate oversight and monitoring of the privacy and data protection program,
the FEC will continue to face greater challenges and continuous risk to the agency, which
is reflected throughout the issues in this report.

The OIG’s 2007 contracted audit firm, as well as CBH and my office, believe that the
Commission should appoint a single Chief Privacy Officer, as intended by law. The
Chief Privacy Officer would continue to be supported by the FEC Privacy Team, both for
technical and legal guidance. We acknowledge the current budget environment is
challenging, and therefore if a full-time CPO position cannot be justified, that serious
consideration be given to detailing an existing FEC staff person, with the knowledge
and/or aptitude in privacy, to assume primary responsibility for FEC privacy.

Audit Follow-up

In accordance with FEC Directive 50, Audit Follow-up, the next step of the audit process
will be for the Staff Director to recommend, and the Commission approve, the Audit
Follow-up Official (AFO). The AFO is responsible for the development of
management’s corrective action plan (CAP) to address the findings and recommendations
identified in the audit report. In addition, the AFO is responsible for finalizing the CAP to
be provided to the Commission. Due to the number of issues identified in the report, the
OIG is recommending an extended schedule to provide management sufficient time to
finalize an effective CAP. The OIG recommends management develop a CAP within 45
days from the issuance of this report, or by May 16, 2011, and provide the CAP to the
OIG for review and comment. The OIG will provide comments to management and the
CAP should be finalized by management and transmitted to the Commission by May 31,
2011.

OIG Evaluation of Cherry, Bekaert & Holland (CBH) Audit Performance

In connection with the OIG’s contract with CBH, we reviewed CBH’s report and related
documentation and inquired of its representatives. CBH is responsible for the attached
auditor's report and the conclusions expressed in the report. The OIG’s monitoring and
review of CBH work disclosed no instances where CBH did not comply, in all material
respects, with generally accepted government auditing standards (GAGAS).

We appreciate the courtesies and cooperation extended to Cherry, Bekaert & Holland and
the OIG staff. If you should have any questions concerning this report, please contact my
office on (202) 694-1015. Thank you.




                                              Lynne A. McFarland
                                              Inspector General

Attachment




                                             2

                               2010 FOLLOW-UP AUDIT OF
                             PRIVACY AND DATA PROTECTION

                             FEDERAL ELECTION COMMISSION

                             AUDIT REPORT NUMBER OIG-10-03




Cherry, Bekaert & Holland, L.L.P.
1834 Gallows Road – Suite 400
Vienna, VA 22182
www.cbh.com
                    Cherry, Bekaert & Holland, L.L.P.
                    The Firm of Choice.
                    www.cbh.com                                      1834 Old Gallows Road – Suite 400
                                                                                 Vienna, Virginia 22182
                                                                                   Phone 703.506.4440
                                                                                    Fax 703.506.8817



March 29, 2011



Ms. Lynne A. McFarland
Inspector General
Federal Election Commission
999 E Street, NW
Washington, DC 20463

Subject:       2010 Follow-up Audit Report on Privacy and Data Protection

Dear Ms. McFarland:

In accordance with the terms of the task order, Cherry Bekaert & Holland LLP conducted a
follow-up audit of the findings and recommendations included in the 2007 Performance Audit of
Privacy and Data Protection, and the 2006 Inspection Report on Personally Identifiable
Information for the purpose of determining the status of the corrective actions for the findings
noted in these reports.

We interviewed key personnel involved in identifying and protecting personally identifiable
information and reviewed documentation supporting the FEC’s efforts to address the findings
and recommendations contained in the reports referenced above. During the course of our
review, we identified additional specific control weaknesses and deficiencies and developed
recommendations designed to improve the FEC’s privacy program and compliance with federal
privacy and security laws and regulations.

We conducted this follow-up audit in accordance with Government Auditing Standards. This
report is intended to meet the purpose described above and should not be used for other
purposes.

We appreciate the opportunity to have served the FEC Office of Inspector General.



Very truly yours,



John Montoro
Partner
                                           CONTENTS

Section                                                                                   Page
Executive Summary                                                                          1
Background                                                                                 9
     Federal Election Commission                                                           9
     Federal Privacy Framework                                                            10 

Objectives, Scope and Methodology                                                         12 

Detailed Findings and Recommendations                                                     14 

     1.     Privacy Roles and Accountability                                              14 

     2.     Privacy Impact Assessments Have Not Been Conducted                            17 

     3.     Monitoring and Review of Regulatory Requirements                              20 

     4.     A Current PII Inventory is Not Maintained                                     22 

     5.     Current Risk Assessments of Systems Containing PII Are Not Performed          26 

     6.     Mobile Computing Policy, Device Encryption and Controls                       28 

     7.     Safeguards Over Sensitive Agency Information and PII Need Improvement         37 

     8.     Lack of Detailed Procedures and Periodic Review                               45 

     9.     Logging                                                                       49 

     10. Protections for Remote Access to PII                                             52 

     11. Vendor Due Diligence                                                             54 

     12. System of Records Notice (SORN) Updates                                          57 

     13. Training Workstations                                                            61 


Attachments
1. Cover Memo To Management Responses to the Cherry, Bekaert & Holland LLP 2010 Follow-
up of the 2007 Performance Audit of Privacy and Data Protection Report
                                                                                           63
2. Status of 2006 and 2007 Privacy Findings and Recommendations                            65 

3. Definitions                                                                             72 

4. Executive Order 13556 Controlled Unclassified Information                               73 

                                              2010 

                                      FOLLOW-UP AUDIT OF 

                                  PRIVACY AND DATA PROTECTION


                                  FEDERAL ELECTION COMMISSION


        The Office of Inspector General (OIG) of the Federal Election Commission (FEC) contracted
with Cherry Bekaert & Holland LLP to conduct a follow-up audit of the 2007 Performance Audit of
Privacy and Data Protection, and the 2006 Inspection Report on Personally Identifiable Information and,
specifically, to determine if the FEC has adequately implemented the agreed actions for each
recommendation and whether each audit finding has been fully resolved. This report is organized into the
following sections:

        •       Executive Summary
        •       Background
        •       Objectives, Scope and Methodology
        •       Detailed Findings and Recommendations
        •       Attachments

EXECUTIVE SUMMARY

         The importance of data protection and privacy within the Federal government and commercial
enterprises is constantly increasing and requires continuous attention. The challenges will be even greater
in the future as the potential use of new technologies (e.g., cloud computing, more prolific use of wireless
mobile computing devices) and changes to business processes and work arrangements (e.g., increased
focus on telework) will create new risks to be managed. There is also a general increasing concern
among individuals about the use and privacy of their personal information controlled by Federal agencies.
For any entity handling personally identifiable information (PII), the effort to sustain an effective and
defensible privacy program that meets the public’s expectations and applicable legal requirements can be
a substantial task.

        Based on our observations during this follow-up audit, we do not believe that the current shared
approach to privacy and data protection used by the FEC adequately addresses the current needs of the
agency and there is no reason to believe it will meet future challenges if changes are not made. The FEC
currently uses a team approach to privacy and data protection which is lead by two co-Chief Privacy
Officers (CPOs) and supported by the Information Systems Security Officer (ISSO) and two members of
the Office of General Counsel, collectively referred to as the “Privacy Team.” All of the team members
have privacy as a “collateral duty” to their main roles and responsibilities and can only spend a minimum
amount of their time on privacy matters. While privacy and data protection is a multi-disciplinary subject
that requires the input from various departments and subject matter experts, the lack of a single full-time
CPO is unique when compared to other Federal agencies and commercial enterprises of similar size and
was a finding in the previous audit in 2007.

         It is our opinion, and the opinion of the prior auditors, that the current approach of having co-
CPOs with privacy as a minimal collateral duty is fundamentally flawed. The model of shared
responsibility has limited the FEC’s privacy program progress and prohibits the FEC from maturing the
privacy program beyond reacting to audit findings and legislative requirements. Despite the substantial
budget constraints, we recommend that the FEC change the current approach and appoint one full-time
CPO to lead the FEC’s privacy and data protection program. The CPO should be the single accountable
individual for privacy and data protection that can be supported by the subject matter expertise and
experience of the existing Privacy Team members. In addition, a formal governance framework to
identify, monitor and measure risk and program metrics is required to provide the appropriate structure
and accountability. These two recommendations are consistent with those noted in the 2007 Performance
                                                   1

Audit of Privacy and Data Protection, with which management disagreed and did not implement. This is
the third independent review of the FEC’s privacy and data protection program since 2006. The FEC also
engaged consultants to assist in certain necessary privacy and data protection initiatives since 2007 and
has spent approximately $875,000 on these audits and consultant efforts, yet many of the previous audit
recommendations are not addressed. Sixteen (16) of nineteen (19) previous recommendations are still
open and many new recommendations have been added.

          During our review, we did note that there have been improvements since the 2007 Performance
Audit of Privacy and Data Protection. Specifically, important progress included: developing and
approving policies; completing an inventory and risk assessment of internal PII repositories in May 2009;
deploying security and privacy training in 2008; executing application vulnerability and penetration tests
on an annual basis; and enhancing physical security measures within the FEC. However, fundamental
activities such as updating and maintaining the inventory of PII and risk assessments have not occurred.
In addition, the PII inventory and risk assessment report provided by the consultant in May 2009 included
important recommendations that have not yet been addressed by the FEC. The PII inventories and
associated recommendations for each division were not provided to division management, despite being
completed almost two years ago, along with a request to validate the inventories, update and maintain
listings, and respond to recommendations specific to the division. Thus, existing and emerging risks to
PII have not been identified and addressed.

       The table on the following pages summarizes the current findings and recommendations, and
whether management concurred with those recommendations.




                                                  2

Summary of Findings, Recommendations and Management Concurrence
Findings                              Recommendations	                                                                                              Management Concurrence
1.	        Privacy Roles and         We recommend that the FEC:
           Accountability
                                      1a.        Assign privacy roles and responsibilities to one individual CPO with high level                    1a. Management does not concur.




                                            	
           (Repeat finding)                      sponsorship in the Commission. If the Commission decides to continue with two CPOs and
                                                 SAOPs, roles and responsibilities under these titles should be clearly delineated between
                                                 individuals sharing the positions.
                                      1b.        Identify, document in position descriptions and performance plans, and assign specific             1b. Management does not concur.
                                            	    roles and responsibilities for the monitoring and reporting of compliance with Federal and
                                                 Commission privacy requirements.
2.         Privacy Impact            We recommend that the FEC:
      	




           Assessments Have Not
           Been Conducted             2a.        Conduct privacy impact assessments in accordance with Section 522, or create an                    2a. Management concurs in part.
                                             	




                                                                                                                                    

                                                 alternative process for ensuring that privacy risks associated with PII are documented,

           (Repeat finding)                      assessed and remediated as necessary.




                                                                                        

                                      2b.        Comply with OMB memoranda, or in the event of statutory exemption and a decision not
                                             	




                                                                                                                                                

                                                 to voluntary comply, document that sufficient controls exist to mitigate the need to
              2b. Management concurs in part.
                                                 comply. Where compliance is not adopted due to resource constraints or other reasons,




                                                                                                                                            

                                                 document the legal assessment, risk analysis, and cost-benefit to the FEC.

                                      2c.	       Identify and implement a governance framework (e.g., NIST, the AICPA’s Generally                   2c. Management concurs in part.
                                                 Accepted Privacy Principles (GAPP)), to ensure that controls within the FEC to protect PII
                                                 are appropriately identified, documented, and implemented.
3.         Monitoring and Review     We recommend that the FEC:
      	




           of Regulatory
           Requirements              3a.         Develop a process and assign accountability for the proactive and timely identification of         3a. Management concurs.
                                           	




                                                 new OMB memoranda, Executive Orders, and other guidance to ensure that they are
           (Repeat finding)                      reviewed and referred for legal opinion on a timely basis.
                                     3b.         Complete legal reviews of OMB memoranda and other guidance on a more timely basis                  3b. Management concurs in part.
                                           	




                                                 and consistently communicate the results to the affected stakeholders, with a copy to the
                                                 co-Chief Privacy Officers.
4.         A Current PII Inventory   We recommend that the FEC:
      	




           is Not Maintained
                                     4a.         Update and maintain the inventory of all systems that contain PII for all the divisions. A         4a. Management concurs in part.
                                           	




           (Repeat finding)                      potential approach is to use the templates created by Solutions Technology Systems, Inc.
                                                 (STSI) and have each division update their current listing and implement business
                                                 processes to continually update the inventory based on new or revised handling and
                                                 storage of PII. A full review could be conducted by the divisions at least annually and will
                                                 help support the biennial Privacy Act Systems of Records update process.




                                                                                              3
                                                                                                  

Summary of Findings, Recommendations and Management Concurrence
Findings                              Recommendations	                                                                                         Management Concurrence
                                     4b.         Finalize the evaluation of the draft STSI recommendations and develop, document and           4b. Management concurs.




                                           	
                                                 implement a corrective action plan as necessary. Progress against the corrective action
                                                 plan should be formally and periodically reported to management.
                                     4c.         Provide the Privacy Team’s SSN Reduction Plan Phase 1 report to the applicable division       4c. Management concurs.


                                           	
                                                 heads, and work with those offices to prepare action plans to address the findings in the
                                                 report.
                                     4.d         Complete Phase 2 and Phase 3 of the “FEC’s Plan to Review and Reduce Holdings of
                                           	
                                                 Personally Identifiable Information and Eliminate Unnecessary Use of Social Security          4d. Management concurs in part.
                                                 Numbers In Response to OMB Memorandum M-07-16, Safeguarding Against and
                                                 Responding to the Breach of Personally Identifiable Information” as soon as practical.
                                                 This can be accomplished by providing the STSI results to the divisions and requesting a
                                                 response on the ability to reduce or eliminate the questionable uses of social security
                                                 numbers already identified by the contractor.
5.         Current Risk              We recommend that the FEC:
           	




           Assessments of Systems
           Containing PII Are Not     5a.        Perform a risk assessment annually for all existing and new applications that collect,        5a. Management concurs in part.
                                             	




           Performed                             process, transmit or store PII. If privacy impact assessments (PIAs) were performed, a risk
                                                 assessment component could be built into that process to accomplish both the PIA and risk
           (Modified repeat                      assessment recommendations.
           finding)
                                      5b.	       Prepare a documented corrective action plan for any deficiency noted for each risk
           5b. Management concurs in part.
                                                 assessment performed and report progress periodically until all corrective actions are




                                                                                                                                          

                                                 implemented. The corrective action plan should be approved by management.




                                                                                                                                

                                      5c.	       Include all systems containing PII that are being retired in the risk assessments and         5c. Management concurs in part.




                                                                                                                                     

                                                 develop action plans to ensure the proper transfer of PII to a new system or the secure




                                                                                                                                           

                                                 destruction of the PII in the retired system.
                                                                                            




6.         Mobile Computing          We recommend that the FEC:
     	




           Policy, Device
           Encryption and Controls   6a.         Modify the Federal Election Commission Mobile Computing Security Policy, Policy               6a. Management concurs in part.
                                           	




                                                 Number 58-4 to require all mobile devices, including Blackberrys, be encrypted.
           (Repeat finding)
                                     6b.	        Revise the Policy Number 58-4 to specify when exceptions to policy may occur, who
                                                 may approve the exception, the risks to PII if an exception is granted and any                6b. Management concurs in part.
                                                 compensating controls, and the level of documentation required to support the exception.
                                     6c.         Record all mobile computing devices in inventory when received after purchase instead         6c. Management does not concur.
                                           	




                                                 of when issued.




                                                                                              4
                                                                                                  

Summary of Findings, Recommendations and Management Concurrence
Findings                         Recommendations	                                                                                        Management Concurrence
                                 6d.       Perform a review of the process and systems used to maintain the inventory of mobile
                                           devices to ensure that they are appropriately designed to maintain a complete and             6d. Management does not concur.
                                           accurate inventory. A complete physical inventory of all mobile devices purchased less
                                           those disposed should be performed and reconciled to the existing mobile device
                                           inventory listing.
                                 6e.       Include a record in the inventory of whether the device is encrypted or not.                  6e. Management does not concur.

                                       	
                                 6f.   	   Implement a process and form requiring employees and contractors to sign when they            6f. Management does not concur.
                                           receive a mobile device acknowledging their receipt of the asset and maintain a record of
                                           these sign-offs.
                                 6g.       Implement an alternative to assigning a generic laptop encryption passphrase to
                                       	



                                           contractors so that every contractor has a unique self selected passphrase, while             6g. Management concurs.
                                           maintaining the ability to decrypt the stored data in the event of an unexpected departure.
                                           The ability to recover unencrypted data of an employee should also be in place.

7.         Safeguards Over       We recommend that the FEC:
           	




           Sensitive Agency
           Information and PII   7a.       ISSO, Physical Security Officer, and/or division management should conduct regular FEC        7a. Management concurs.
                                       	




           Need Improvement                office walkthroughs to ensure that agency staff comply with privacy and information
                                           security standards.
           (Repeat finding)                                                                                                              7b. Management does not concur.
                                 7b.       Should emphasize document labeling requirements for documents with PII or sensitive
                                       	




                                           information with all staff and standard document templates with labels be created and the
                                           use monitored.
                                 7c.       Should develop a plan to implement Executive Order 13556, Controlled Unclassified
                                       	




                                           Information, and comply with future directives issued by NARA.                                7c. Management concurs in part.

                                 7d.       Division managers should work with the Physical Security Officer and the Records              7d. Management concurs.
                                       	




                                           Officer to assess records management and secure storage needs and address failures to
                                           adequately secure sensitive information noted during the walkthrough.
                                 7e.       Contracting Officer and COTRs should enforce the requirement for contractors to certify
                                       	




                                           secure destruction or return of FEC information in both paper and electronic format.          7e. Management concurs.
                                 7f.       Should establish a policy and procedures requiring COTRs to inspect the physical space
                                       	




                                           occupied by contractors when the contractor departs to ensure paper and electronic records
                                                                                                                                         7f. Management concurs.
                                           are securely disposed of or filed.
                                 7g.       Should implement the plan to develop and deploy privacy training specific to the
                                       	




                                           individual divisions.                                                                         7g. Management concurs.




                                                                                        5
                                                                                            

Summary of Findings, Recommendations and Management Concurrence
Findings                             Recommendations	                                                                                       Management Concurrence
8.         Lack of Detailed          We recommend that the FEC:
     	




           Procedures and Periodic
           Review                    8a.     Should develop, implement and communicate detailed procedures to all employees for             8a. Management concurs in part.
                                             each security and privacy related policy. This may need to occur at the division or
           (Modified repeat                  department level with the Privacy Team serving as subject matter experts. Detailed
           finding)                          procedures will also be helpful for agency staff tasked with monitoring, enforcing and
                                             reporting on compliance with the requirements in the associated policies.
                                                                                                                                            8b. Management concurs.
                                     8b.     Should directly link detailed procedures to the source policies and house them in a central,
                                             easily accessible location, such as the FEC Intranet.
                                     8c.     Should follow a standard template for all policies and supporting documents that includes      8c. Management concurs in part.
                                             an adoption and last revision date.
                                     8d.     Should review on a regular basis all of the privacy and data security policies, procedures,    8d. Management concurs in part.
                                             standards and guidelines on a defined timeframe (e.g., annually), and they should be dated,
                                             and updated as necessary and include a point of contact if employees have questions.
9.         Logging                   We recommend that the FEC:
           (Repeat finding)          9.      Implement logging for all computer-readable data extracts from databases holding               9. Management does not concur.
                                             personally identifiable information (PII).
10.        Protections for Remote    We recommend that the FEC:
           Access to PII
                                     10a.    Should change Policy 58-4.5 Virtual Private Network (VPN) and Directive 58, Electronic         10a. Management concurs in part.
           (Repeat finding)                  Records, Software and Computer Usage, to state that work related data must be saved to
                                             the network and not downloaded and saved on local devices. Exceptions to the policy
                                             should be clearly documented and approved by management, and, where possible,
                                             compensating controls put in place.
                                     10b.    Should further re-enforce the key elements in this and other security policies and also
                                             design and implement a formal communications plan to re-enforce key privacy and                10b. Management concurs.
                                             security principles contained in the policies and training. This communication plan should
                                             include scheduled periodic reminders to employees and contractors on key principles that
                                             can be delivered through such means as emails, log-in banners, newsletter articles, posters
                                             or other existing communication vehicles currently used to communicate with employees.
                                             The most effective messaging is typically brief and focused on a single topic. For
                                             example, an email message such as: REMINDER: Save all your work on the network and
                                             do not download to your computer.
                                     10c.    Modify the Intranet to contain a page with Privacy and data protection policies, procedures
                                             and updates. This would ensure that all FEC employees are aware of the policies with           10c. Management concurs.
                                             regard to PII and privacy and data protection.



                                                                                          6
                                                                                              

Summary of Findings, Recommendations and Management Concurrence
Findings                           Recommendations	                                                                                             Management Concurrence
11.        Vendor Due Diligence    We recommend that the FEC:
           (Repeat finding)        11a.        Should develop and maintain a comprehensive list of all vendors that handle PII.                 11a. Management concurs.




                                           	
                                   11b.        Should develop a policy and supporting procedures to assess and approve vendors with             11b. Management concurs in part.




                                           	




                                                                                                                                          
 

                                               access to FEC PII to reasonably ensure that the vendor has adequate controls in place to
                                               protect the information before any PII is provided to the vendor.




                                                                                                               

                                   11c.        Should formally document the process used to review the FEC’s vendors that are entrusted
                                           	   with PII and the results should be retained to evidence the review procedures performed.         11c. Management concurs in part.
                                               In addition, there should be documented management approval from the appropriate
                                               department head and either of the co-Chief Privacy Officers before the vendor is provided
                                               access to FEC PII. There may be more than one department head that should review and
                                               approve a specific vendor if the PII affected pertains to more than one department.
12.        System of Records       We recommend the FEC Privacy Officer:
      	




           Notice (SORN) Updates
                                   12a.	       Develop a standardized template to allow system managers to accurately document SORs             12a. Management concurs in part.
           (Repeat finding)                    independently of the Privacy Team.
                                   12b.        Enhance existing guidelines and procedures to include timelines and deadlines that
                                                                                                                                                12b. Management concurs.
                                               	




                                                                                                                                    

                                               promote regular review and timely updates to SORs.




                                                                                                    

                                   12c.        Work with ITD management to incorporate SORs assessment processes into systems
                                           	




                                                                                                                                    

                                               under development and IT lifecycle management processes.                                         12c. Management concurs.




                                                                                                           

                                   12d.        Work with the Physical Security Officer, the FEC Records Officer, and FEC management
                                           	




                                               to incorporate SORs assessment processes into electronic and paper records management
                                               processes.                                                                                       12d. Management concurs.

                                   12e.        Develop and implement policies and procedures that define monitoring and reporting
                                           	




                                                                                                                                        
 

                                               processes to ensure SORs are updated and amendments published in accordance with                 12e. Management concurs in part.
                                               Federal regulations by:
                                                                      





                                               •	        providing regular training to FEC managers and SOR system owners/managers;
                                               •	        Establish deadlines, based on the legal requirements of OMB A-130, for
                                                         documenting the new SORs, revisions to existing SORs, and publish the updated
                                                         SORN;
                                               •	        providing legal assessment of potential changes in SORs and quality assuring
                                                         the SORs produced by system owners/managers;
                                               •	        including performance standards in employee performance plans that are linked
                                                         to successful compliance with Federal regulations; and
                                               •	        requiring regular reporting of compliance with the timelines to the Commission.




                                                                                            7
                                                                                                

Summary of Findings, Recommendations and Management Concurrence
Findings                           Recommendations                                                                            Management Concurrence
13.        Training Workstations   We recommend that the FEC:
           (New)                   13.     Restrict the training workstations to only be able to access training materials.   13. Management concurs.




                                                                                          8
                                                                                              

BACKGROUND

Federal Election Commission

The FEC, an independent federal agency established by the Congress as a Commission, is responsible for
administering and enforcing the Federal Election Campaign Act (FECA), 2 USC § 431. The FEC
administers and enforces FECA through the three core programs of disclosure, compliance, and public
financing.

        •	      Disclosure. Disclosure involves receiving reports of campaign finance transactions by
                candidates and political committees involved in elections for Federal office and
                promulgating them as part of the public record.

        •	      Compliance. Compliance involves reviewing and assessing campaign finance
                transactions to ensure that filers abide by appropriate FECA limitations, prohibitions, and
                disclosure requirements. Compliance also involves oversight of individual contributors,
                corporations, labor unions, and “issue” groups that, although they may not fit within the
                universe of filers, can be involved in violations of FECA. The FEC has exclusive
                jurisdiction over civil enforcement of FECA and engages in civil enforcement
                proceedings to resolve instances of noncompliance.

        •	      Public Financing. Public financing is the system for financing Presidential primaries,
                general elections, and national party conventions. Congress designed the program to
                correct campaign finance abuses perceived in the 1972 Presidential electoral process.
                The program combines public funding with limitations on contributions and
                expenditures. The program has three parts: (1) matching funds for primary candidates,
                (2) funds to sponsor political-party Presidential nominating conventions, and (3) funds
                for the general election campaigns of major party nominees and partial funding for
                qualified minor and new party candidates.

                Based on statutory criteria, the FEC determines which candidates and committees are
                eligible for public funds and funding amounts. The U.S. Treasury then makes the
                necessary payments. The FEC audits all committees that received public funds to ensure
                that committees used funds in accordance with the FECA, public funding statutes, and
                FEC regulations. Based on the FEC’s audit findings, Presidential committees may be
                required to make repayments to the U.S. Treasury.

The FEC is headed by six commissioners appointed by the President and confirmed by the Senate.
Commissioners serve six-year terms, and no more than three Commissioners may represent the same
political party. By statute, the Commissioner chairmanship rotates every year, and the designated
chairman has limited authority to set the agency’s agenda.

Under the Commissioners, the FEC’s organizational structure is separated into four primary offices:

        •	      Office of the Staff Director (OSD). OSD is headed by a statutory officer. Subordinate
                organizations to the Staff Director are in most cases called “offices” for staff support
                activities and “divisions” for line activities involved in one or more of the three core
                programs. Programmatic elements under OSD include the Disclosure Division,
                Information Technology Division, Information Division, Press Office, Reports Analysis
                Division, and Audit Division.



                                                  9

        •	      Office of the General Counsel (OGC). OGC is headed by a statutory officer.
                Subordinate offices to OGC are titled Associate General Counsels, and each supports one
                or more of the three core FEC programs.

        •	      Office of Inspector General (OIG). OIG is headed by a statutory officer, the Inspector
                General, who reports directly to the Commission and Congress.

        •	      Chief Financial Officer (CFO). The Office of the CFO is headed by the CFO.
                Subordinate offices include Finance, Procurement, and Budget.

The FEC’s privacy structure consists of a Privacy Officer, Co-Chief Privacy Officers (CPOs), and Co-
Senior Agency Officials for Privacy (SAOP). The Privacy Officer position is held by the Associate
General Counsel (AGC) for General Law and Advice (GLA), while the CPO and SAOP positions are
shared by the AGC GLA and Chief Information Officer (CIO). Responsibilities for privacy are separated
into two areas, legal and technical; AGC GLA handles legal issues, and the CIO handles technical issues.
The Information Systems Security Officer (ISSO), and two attorneys from OGC GLA, along with the Co-
CPOs comprise the FEC “Privacy Team.”

Federal Privacy Framework

Privacy in the Federal government is rooted in passage of the Privacy Act of 1974 and subsequent
amendment. Congress enacted the Privacy Act based on its understanding that:

1.	     The privacy of an individual is directly affected by collection, maintenance, use, and
        dissemination of personal information by Federal agencies.

2.	     The increasing use of computers and sophisticated information technology, while essential to
        efficient government operations, has greatly magnified the harm to individual privacy that can
        occur from any connection, maintenance, use, or dissemination of personal information.

3.	     Opportunities for any individual to secure employment, insurance, and credit have a right to due
        process, and other legal protections are endangered by misuse of certain information systems.

4.	     The right to privacy is a personal and fundamental right protected by the Constitution of the
        United States.

5.	     To protect the privacy of individuals identified in information systems maintained by Federal
        agencies, it is necessary for Congress to regulate collection, maintenance, use, and dissemination
        of information by such agencies.

The purpose of the Privacy Act of 1974, as amended, is to provide certain safeguards for an individual
against an invasion of personal privacy by requiring Federal agencies, except as otherwise provided by
law, to:

1.	     Permit an individual to determine what records pertaining to him/her are collected, maintained,
        used, or disseminated by such agencies.

2.	     Permit an individual to prevent records pertaining to him/her obtained by such agencies for a
        particular purpose from being used or made available for another purpose without consent.

3.	     Permit an individual to gain access to information pertaining to him/her in Federal agency
        records, to have a copy made of all or any portion thereof, and to correct or amend such records.

                                                  10

4.	       Collect, maintain, use, or disseminate any record of identifiable personal information in a manner
          that assures that such action is for a necessary and lawful purpose, that the information is current
          and accurate for its intended use, and that adequate safeguards are provided to prevent misuse of
          such information.

Section 6 of the Privacy Act of 1974, as amended, directed the Office of Management and Budget (OMB)
to develop guidelines for agencies to use in the Act’s implementation. Driven by the Privacy Act and
recent high-profile incidents surrounding actual or potential privacy breaches or loss of sensitive PII,
OMB has released a number of memorandums for agencies to follow in protecting PII, including:
          •         OMB Circular A-130, Management of Federal Information Resources, Appendix I,
                    Federal Agency Responsibilities for Maintaining Records About Individuals
          •	        OMB Memorandum M-03-18, Implementation of E-Government Act of 2002
          •	        OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions
                    of the E-Government Act of 2002
          •	        OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy
          •	        OMB Memorandum M-06-16, Protection of Sensitive Agency Information
          •	        OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
                    Information and Incorporating the Cost for Security in Agency Information Technology
                    Investments
          •	        OMB Memorandum M-07-16, Safeguarding Against and Responding to Breach of
                    Personally Identifiable Information
          •	        OMB Memorandum M-07-18, Ensuring New Acquisitions Include Common Security
                    Configurations
          •	        OMB Memorandum M-07-19, Reporting Instructions for Federal Information Security
                    Management Act and Agency Privacy Management
          •	        OMB Memorandum M-08-23, Securing the Federal Government’s Domain Name System
                    Infrastructure
          •	        OMB Memorandum M-09-02, Information Technology Management Structure and
                    Governance Framework
          •	        OMB Memorandum M-10-23,Guidance for Agency Use of Third-Party Websites and
                    Applications
          •	        OMB Memorandum M-11-02, Sharing Data While Protecting Privacy

In addition to the Privacy Act and OMB memoranda, Congress passed and the President signed into law
the Consolidated Appropriations Act, 2005 (Public Law 108-447), on December 8, 2004. Section 522 of
this Act mandates of certain agencies the designation of a senior privacy official, establishment of privacy
and data protection procedures, a written report by the agency on the use of information in an identifiable
form,1 independent third-party review of the agency’s use of information in an identifiable form, and a
report by the Inspector General to the agency head on the independent review and resulting
recommendations.



1
  Identifiable form is any representation of information that permits the identity of an individual to whom the information applies
to be reasonably inferred by either direct or indirect means. Personally identifiable information (PII) has a similar meaning and
will be the term used throughout this document.
                                                             11

Section 522 (d)(3) previously required the Inspector General to contract with an independent third-party
privacy professional to evaluate the agency’s use of information in an identifiable form and privacy and
data protection procedures. The independent review is to include (a) an evaluation of the agency’s use of
information in identifiable form, (b) an evaluation of the agency’s privacy and data protection procedures,
and (c) recommendations on strategies and specific steps to improve privacy and data protection
management. Section 522 required an independent third-party review at least every two years and
required the Inspector General to submit a detailed report on the review to the agency head. Under
section 522 of the Consolidated Appropriations Act 2008, the review may now be performed by the
Office of Inspector General or by an independent third party. The review is no longer required every two
years but allows the OIG the flexibility to perform it “periodically” as required. The report is to be made
available to the public through the internet.

Additional laws, regulations, and criteria released by Congress, OMB, and the National Institute of
Standards and Technology (NIST) related to privacy include2:
            •	       The E-Government Act of 2002, Section 208
            •	       Federal Information Processing Standards Publication (FIPS PUB) 199, Standards for
                     Security Categorization of Federal Information and Information Systems
            •	       FIPS PUB 200, Minimum Security Requirements for Federal Information and
                     Information Systems
            •	       NIST Special Publication (SP) 800-60, Volume I, Revision 1: Guide for Mapping Types
                     of Information and Information Systems to Security Categories
            •	       NIST SP 800-60, Volume II, Revision 1: Appendices to Guide for Mapping Types of
                     Information and Information Systems to Security Categories
            •	       NIST SP 800-30, Risk Management Guide for Information Technology Systems
The following Executive Order signed by President Obama dated November 4, 2010 addresses
information classification within Federal government agencies:
            •	       Executive Order #13556: Controlling Unclassified Information

OBJECTIVES, SCOPE AND METHODOLOGY

FEC Management prepared a corrective action plan (CAP) to address the findings and recommendations
included in the Office of Inspector General’s (OIG) 2007 Performance Audit of Privacy and Data
Protection. The objective of this audit follow-up was to determine whether management implemented the
agreed actions for each recommendation and whether each audit finding in the 2007 report has been fully
resolved. The audit follow-up was conducted in accordance with Government Auditing Standards. The
FEC OIG engaged Cherry Bekaert & Holland LLP to perform this audit follow-up.

In addition to the seven findings and thirteen recommendations included in the 2007 Performance Audit
of Privacy and Data Protection, Cherry Bekaert & Holland LLP was required to determine whether
controls are adequate to ensure the FEC System of Records (SOR) is updated and published in accordance
with the Privacy Act of 1974 and the Office of Management and Budget (OMB) Circular A-130
Appendix I. Cherry Bekaert & Holland LLP also reviewed and is reporting on the six outstanding
recommendations from the OIG’s 2006 Inspection Report on Personally Identifiable Information.

Cherry Bekaert & Holland LLP conducted this review through the use of the following: detailed
interviews; review and evaluation of relevant documents such as FEC privacy and security policies,

2
    FEC legal analysis concluded that the FEC is exempt from these requirements.
                                                             12

procedures, directives, training materials, mobile device asset listings, system settings; and auditor
observation. We conducted interviews to obtain an understanding of the corrective actions implemented
since the 2007 Performance Audit of Privacy and Data Protection and to understand management’s
approach and strategy for identifying, assessing risk, protecting PII and complying with applicable legal
requirements. We interviewed key personnel from senior management and staff from various offices
including the members of the FEC Privacy Team.

Based on results of our review, Cherry Bakaert & Holland LLP developed findings and recommendations
for management, which are in the following section.




                                                  13

DETAILED FINDINGS AND RECOMMENDATIONS

Management’s responses to the detailed findings were provided in a memorandum dated March 16, 2011
from Mr. Alec Palmer, Acting Staff Director, Chief Information Officer and Co-Chief Privacy Officer
and Mr. Lawrence L. Calvert, Associate General Counsel for General Law and Advice and Co-Chief
Privacy Officer to Ms. Lynne McFarland, Inspector General and Mr. Jonathan Hatfield, Deputy Inspector
General. Management’s responses are included verbatim below. Attachment 1 contains the cover memo
to management’s responses.

Finding 1: Privacy Roles and Accountability

The Chief Privacy Officer (CPO), Privacy Officer (PO), and Senior Agency Official for Privacy (SAOP)
roles and responsibilities are documented in privacy policies and directives. The CPO and SAOP
positions are currently being shared by the Associate General Counsel (AGC) for General Law and
Advice (GLA) and the Chief Information Officer (CIO). Review of the documented roles and
responsibilities for the CPO and SAOP showed they have not been specifically assigned to either the
AGC for GLA or the CIO. In addition, while CPO roles and responsibilities do include responsibility for
ensuring compliance with laws and regulations, the policies and directives do not identify how
compliance will be monitored or identify which CPO will perform specific monitoring activities. To the
best of our knowledge, we are not aware of any other Federal government agency or private sector
organization that has co-CPOs.

Based on interviews with the co-CPOs, we determined that it was unclear which individual is specifically
responsible for ensuring compliance with privacy policies and procedures at the agency level.

Consolidated Appropriations Act, 2005, Section 522 (a) Privacy Officer states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for privacy and
        data protection policy, including –

        1.	     assuring that the use of technologies sustain and do not erode, privacy protections
                relating to use, collection, and disclosure of information in an identifiable form;
        2.	     assuring that technologies used to collect, use, store, and disclose information in
                identifiable form allow for continuous auditing of compliance with stated privacy policies
                and practices governing the collection, use and distribution of information in the
                operation of the program;
        3.	     assuring that personal information contained in Privacy Act systems of records is
                handled in full compliance with fair information practices as defined in the Privacy Act
                of 1974;
        4.	     evaluating legislative and regulatory proposals involving collection, use, and disclosure
                of personal information by the Federal Government;
        5.	     conducting privacy impact assessment of proposed rules of the Department on the
                privacy of information in identifiable form, including the type of personally identifiable
                information collected and the number of people affected;
        6.	     preparing a report to Congress on an annual basis on activities of the Department that
                affect privacy, including complaints of privacy violations, implementation of section 552a
                of title 5, 11 United States Code, internal controls, and other relevant matters;
        7.	     training and educating employees on privacy and data protection policies to promote
                awareness of and compliance with established privacy and data protection policies; and
        8.	     ensuring compliance with the Departments established privacy and data protection
                policies.

                                                 14

Section 522 (b) states that:

        “Establishing Privacy and Data Protection Procedures and Policies. In general.--Within 12
        months of enactment of this Act, each agency shall establish and implement comprehensive
        privacy and data protection procedures governing the agency’s collection, use, sharing,
        disclosure, transfer, storage and security of information in an identifiable form relating to the
        agency employees and the public. Such procedures shall be consistent with legal and regulatory
        guidance, including OMB regulations, the Privacy Act of 1974, and section 208 of the E-
        Government Act of 2002.”

        The FEC has not assigned responsibility for compliance with privacy regulations to a single
        individual. Instead the agency has chosen to share the responsibilities between two individuals
        but has not adequately defined the respective roles and responsibilities of either in job
        descriptions.

        Consolidated Appropriations Act, 2005, Section 522 (a) describes the responsibilities of a “Chief
        Privacy Officer” and does not prohibit co-Chief Privacy Officers. However, without clearly
        assigning accountability for privacy leadership to a specific individual, it has limited the progress
        of the privacy program made by the FEC and prohibits the FEC from maturing the privacy
        program beyond reacting to audit findings and legislative requirements. In addition, the
        Commission’s ability to hold specific individuals accountable for failures to develop, implement,
        and monitor a privacy framework is reduced. Without a strong privacy framework, the risk of
        sensitive or personally identifiable information being obtained and used for unauthorized
        purposes increases.

Recommendations

We recommend that the FEC:

        1a. 	   Assign privacy roles and responsibilities to one individual CPO with high level
                sponsorship in the Commission. If the Commission decides to continue with two CPOs
                and SAOPs, roles and responsibilities under these titles should be clearly delineated
                between individuals sharing the positions.

        1b. 	   Identify, document in position descriptions and performance plans, and assign specific
                roles and responsibilities for the monitoring and reporting of compliance with Federal
                and Commission privacy requirements.

Management Response to 1a:

Management does not concur: The report provides that “[b]ased on interviews with the co-CPOs, we
determined that it was unclear who was specifically responsible for ensuring compliance with privacy
policies and procedures at the agency level.” To clarify we believe that the roles and responsibilities of
the Co-CPOs are clearly defined in Directive 65, and that there should not be one individual CPO.
Directive 65, “Designation of Chief Privacy Officer and Senior Agency Official for Privacy” explicitly
describes the duties of the Co-CPOs. The Directive indicates that the “Chief Information Officer [CIO]
and the FEC Associate General Counsel for General Law and Advice [AGC] shall serve jointly as the
Chief Privacy Officer as well as the Senior Agency Official for Privacy.” It also provides that while the
CIO and AGC will share the CPO duties, the CIO will address “technological safeguards and processes”
and the AGC will address “issues of statutory and regulatory interpretation.” Thus the Directive is clear
as to the roles and responsibilities of the Co-CPOs.

                                                   15

Additionally, we disagree that an individual CPO is necessary. One of the benefits of having two CPOs
(as well as having members of the team from OGC and OCIO) is that it affords us the opportunity to
share unique perspectives and judgments that are possible only because of our differing expertise and
backgrounds. Using a multidisciplinary team to address privacy issues enables us to consider technology
and legal issues simultaneously. This would not be possible if there were only one CPO.

We acknowledge that there would be some benefits to having a single CPO. However, we believe most
of these benefits would be realized only if the position of CPO was a full-time position, rather than a
collateral duty. Such an official would likely be able to move projects forward more efficiently, and
accountability would be simpler. However we believe that at this time, in the Commission’s
circumstance, those benefits are outweighed by the benefits of having a joint working group (i.e. less
stove piping and more synergy; and the advantage of having two agency officials with the clout to receive
buy-in for privacy projects from the Commission and senior managers). While we agree that privacy is of
the utmost importance, and it is unfortunate that we have been unable to move forward with some privacy
projects at a faster pace because of conflicting priorities, we still find that the progress that has been made
is significant in comparison to what has been done in the past (e.g., it took approximately 13 years for the
2008 SORNs to be published, whereas there will only be a 3-year gap when the 2011 SORNs are
published). Moreover, given that the greatest benefits of a single CPO would accrue from having a full-
time CPO, we have to acknowledge that the ability to create such a position is highly unlikely in the
budgetary environment the Commission is likely to face over the next several years. For these reasons,
we respectfully decline to adopt a single CPO model.

Auditor Response:

We acknowledge that progress has been made over the past couple of years and that the Privacy Team
members have other significant job responsibilities. However, significant work remains. We continue to
believe the Commission should appoint a single individual to the position of Chief Privacy Officer. We
acknowledge that the current budgetary environment is very challenging and adding a new CPO position
seems in conflict to budgetary constraints. However, it appears that management acknowledges the
benefits of a full-time CPO. We believe that a discussion with the Commissioners by management
regarding a full-time CPO position is warranted to create the position, or serious consideration is made to
detail an existing FEC staff person with the knowledge and/or aptitude in privacy to assume primary
responsibility for FEC privacy.

Management Response to 1b:

Management does not concur: The roles and responsibilities outlined in Directive 65, and the FEC
Privacy Policies and Procedures provide sufficient accountability for the Co-CPOs with respect to
agency-wide privacy compliance. If the goal is to hold someone accountable for privacy these directives
accomplish that goal. The Co-CPOs in turn hold the rest of the Privacy team responsible and accountable
for privacy duties.

Auditor Response:

Accountability should be strengthened through more detailed metrics that are included in the performance
plans of Privacy Team members.




                                                    16

Finding 2: Privacy Impact Assessments Have Not Been Conducted

The original findings from the 2007 report regarding the lack of privacy impact assessments (PIAs)3 and
selective compliance with OMB memoranda without documented analysis and justification have not been
addressed. While there are various security review procedures periodically executed by Information
Technology Division (ITD) staff or contractors, the procedures compliment but do not replace the need
for PIAs on new and existing systems. Also, rather than implementing information security controls
described in OMB memorandums as a matter of best practice, the agency continues to rely on legal
justifications and exemptions to support not adopting OMB standards. Noting the FEC’s exemption from
Financial Information Security Management Act (FISMA) and NIST under the E-Government Act, the
longstanding practice of legal assessment, rather than risk assessment, lacks adequate due diligence
because the potential impact of the agency’s failure to implement specific information system security
controls is not fully considered. For instance, OMB memoranda, M-08-23, released August 22, 2008,
required agencies to deploy “Domain Name System Security (DNSSEC) to all Federal information
systems by December 2009. DNSSEC provides cryptographic protections for DNS communication
exchanges, thereby removing threats of DNS-based attacks and improving overall integrity and
authenticity of information processed over the internet.” It is noted that OMB memoranda are largely
based on FISMA and NIST requirements, The FEC Office of General Counsel (OGC) provided a legal
assessment of OMB M-08-23 on March 10, 2010 and opined that:

        “The memo is derived from security recommendations made in NIST Special Publication 800-81;
        the security controls are intended to remove threats of attacks to the agency's domain name
        system (DNS). According to the memo, the controls are to be initiated on "FISMA high and
        moderate impact information systems" and will be tracked on future FISMA reports. The FEC is
        exempt from FISMA, since the Act only applies to agencies subject to the Paperwork Reduction
        Act (44 USC 3502), from which the FEC is explicitly exempt. The FEC is not required to follow
        NIST guidance under 15 U.S.C. § 278g-3(a). Moreover, because NIST guidance stems from
        FISMA, it follows that we are exempt from its recommendations. For these reasons, the FEC is
        not required to follow OMB M-08-23, although it may decide to do so only as a best practice.”

We note that the legal opinion stated the agency “may decide to do so only as best practice ,” however the
agency has not yet performed or documented a risk assessment and cost benefit analysis on implementing
or failing to implement the security standard. The legal assessment was performed more than 18 months
after release by OMB and after the date for submission of draft agency plans by September 5, 2008 and
the effective date of December 2009. The assessment did not address mandatory language in the
memorandum that expanded the scope of existing policy and applied it to “all United States Government
“USG” information systems.”

A documented risk assessment would include addressing questions such as:

    •	 Is the subject matter in the OMB memorandum applicable to FEC operations?
    •	 What are the risks or “what could go wrong” scenarios if the guidance in the OMB memorandum
       is not implemented?
    •	 Considering current controls in place, what is the likelihood that the risks identified will 

       materialize?


3
  Privacy Impact Assessment (PIA) - is an analysis of how information is handled: (i) to ensure handling conforms to
applicable legal, regulatory, and policy requirements regarding privacy, (ii) to determine the risks and effects of
collecting, maintaining and disseminating information in identifiable form in an electronic information system, and
(iii) to examine and evaluate protections and alternative processes for handling information to mitigate potential
privacy risks. Source: OMB 03-22.

                                                      17

    •	 What is the cost to mitigate the risk?
    •	 What is the level of complexity to mitigate the risk?
    •	 Are the means to mitigate the risk primarily dependent on technology, process or personnel
       changes?
    •	 What are the benefits to mitigate the risk?
    •	 What is the estimated timeframe to mitigate the risk?
    •	 What are the human resource requirements to mitigate the risk?
    •	 If the risks identified will be accepted, the rationale, and management approval for that decision
       should be documented.

As interpreted and applied by the FEC, exception under the E-Government Act overrides the fact that the
FEC does have high or moderate impact information systems and risk associated with potential
unauthorized use, compromise, and loss of the fec.gov domain space. There is no documented acceptance
of risk and no accountability if the agency’s failure to apply the security standard results in the possibility
of the FEC website being defaced with false or offensive information (e.g., pornography), disabled so that
the website is not accessible to the public or is infected with malicious software that could harm a website
visitor’s computer.

Section 522, Section (a)(5) of the Consolidated Appropriations Act of 2005 states as follows:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for
        privacy and data protection policy, including conducting a privacy impact assessment of
        proposed rules of the Department on the privacy of information in an identifiable form,
        including the type of personally identifiable information collected and the number of
        people affected.

OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy, page 1, states:

        As is required by the Privacy Act, the Federal Information Security Management Act
        (FISMA), and other laws and policies, each agency must take appropriate steps
        necessary to protect personal information from unauthorized use, access, disclosure or
        sharing, and to protect associated information systems from unauthorized access,
        modification, disruption or destruction. Agencies are required to maintain appropriate
        documentation regarding their compliance with information privacy laws, regulations,
        and policies.

The FEC has conducted a legal review and determined the agency is exempt from the requirement to
complete PIAs. In addition, some Privacy Team members believe the PIA process is too onerous and
there is not sufficient staff to execute PIAs. Neither of the co-Chief Privacy Officers has been assigned
responsibility or accountability for performing alternate risk assessment processes.

A comprehensive approach to identifying, assessing, mitigating, monitoring and reporting risks, which
would include a PIA or equivalent process, has not been mandated and thus has not been implemented.
Without such a framework, management may be taking on more risk than they would otherwise want to
accept, or the current process may be inefficient in the application of necessary controls. In addition,
without a privacy impact assessment, the FEC cannot accurately assess where privacy related risks exist.
Sensitive PII may be compromised by an unauthorized user if they exploit these unprotected risks.




                                                    18

Recommendations

We recommend that the FEC:

        2a.     Conduct privacy impact assessments in accordance with Section 522, or create an
                alternative process for ensuring that privacy risks associated with PII are documented,
                assessed and remediated as necessary.

        2b.     Comply with OMB memoranda, or in the event of statutory exemption and a decision not
                to voluntary comply, document that sufficient controls exist to mitigate the need to
                comply. Where compliance is not adopted due to resource constraints, document the legal
                assessment, risk analysis, and cost-benefit to the FEC.

        2c.     Identify and implement a governance framework (e.g., NIST, the AICPA’s Generally
                Accepted Privacy Principles (GAPP)), to ensure that controls within the FEC to protect
                PII are appropriately identified, documented, and implemented.

Management Response to 2a:

Management concurs in part: At the outset, it must be noted that the agency has flexibility as to
whether it should conduct privacy impact assessments (PIAs) as this is a requirement under the E-
Government Act, from which the agency is exempt. Thus, as noted by the auditors, the agency is not
mandated by law to conduct PIAs or any similar process that would be required by the E-Government
Act. However, we may consider implementing a modified, or alternative, template document that would
provide the benefits of a PIA without the strain on the Commission’s staffing resources.

Auditor Response:

While PIAs are not a legal requirement for the FEC, PIAs, or an equivalent, are an invaluable tool to
reasonably ensure that privacy risks are identified and addressed. We look forward to reviewing the
details in the corrective action plan of when a modified or alternative template will be implemented or
further explanation of why it will not be implemented.

Management Response to 2b:

Management concurs in part: The auditors noted that “rather than implementing information security
controls described in OMB memorandums as a matter of best practice, the agency continues to rely on
legal justifications and exemptions to support not adopting OMB standards.” This is not entirely true.
While legal exemptions may be one factor in determining whether to adopt a OMB standard, they are not
the only factor. The agency relies on various factors to determine whether a standard should be
implemented despite the exemption, most notably cost and resources.

Nevertheless, we agree that in certain cases it may be appropriate for the agency to conduct an informal
risk assessment and cost-benefit analysis of an OMB requirement if there is a statutory exemption. These
limited circumstances are: 1) where the requirements are feasible to implement from a budgetary,
resource, and agency-mission perspective; and 2) where the costs or benefits of implementing those
requirements are unclear or require additional investigation. While we do not agree that a formal
documented risk assessment is necessary to explain why management decided to opt out of an OMB
requirement that the agency is exempt from, we can agree to conduct a documented informal analysis that
explains the costs of implementing the guidance, and how the costs outweigh the benefits of compliance.


                                                  19

Auditor Response:

While we acknowledge that an informal documented risk assessment would be an improvement over the
current state, the agency’s position why OMB guidance was or was not adopted should be a formal
process with the conclusions approved by management.

Management Response to 2c:

Management concurs in part: We appreciate the auditors calling our attention to the GAPP framework.
On first review, the principles of GAPP, although developed for private entities, appear to be closely
aligned with the requirements of the Privacy Act (which applies to the FEC) and with the agency’s
privacy policies. While we cannot commit to adopting GAPP in its entirety at this time, we can commit
to a careful review of GAPP.

Auditor Response:

We agree that a careful review of GAPP should be performed and a documented summary of the results
be prepared and provided to management. We look forward to reviewing the details and milestones for
the review in the corrective action plan.

Finding 3: Monitoring and Review of Regulatory Requirements

There is no defined process or assigned accountability by which the Commission identifies new OMB
memoranda or Executive Orders and ensures that they are reviewed for legal applicability. In addition, if
the memoranda or Executive Orders do not legally apply, a risk assessment to evaluate if it is prudent to
adopt the directive is not performed. During this follow-up review, we identified several OMB
memoranda related to information security or privacy issues that were issued since December 2007, when
the prior audit report was released, including:

    1.	 M-08-23, August 22, 2008, “Securing the Federal Government’s Domain Name System

        Infrastructure (Submission of Draft Agency Plans Due by September 5, 2008).”


        FEC legal opinion rendered on March 10, 2010.

    2.	 M-09-02, October 21, 2008, “Information Technology Management Structure and Governance
        Framework.”

        FEC legal opinion rendered on June 16, 2009.

    3. M-10-23, June 25, 2010, “Guidance for Agency Use of Third-Party Websites and Applications.”

        FEC legal review in progress.

    4.	 M-11-02, November 2, 2010, “Sharing Data While Protecting Privacy.”

        FEC legal opinion rendered on December 6, 2010.

As is evident from the above, legal reviews are not always conducted on a timely basis. The reason is that
unless a division or department requests a legal review of new OMB memoranda or Executive Order, the
Office of General Counsel does not perform a review. In some cases, the delayed timing for performing a
legal review is due to legal resources having higher priorities. As a result of untimely review of the OMB
memoranda or Executive Orders, any applicable legal requirement or high risk item in the documents may

                                                 20

not be addressed on a timely basis if the affected division or department does take necessary action before
requesting or receiving a legal opinion.

Recommendations

We recommend that the FEC:

        3a.     Develop a process and assign accountability for the proactive and timely identification of
                new OMB memoranda and Executive Orders to ensure that they are reviewed and
                referred for legal opinion on a timely basis.

        3b.     Complete legal reviews of OMB memoranda on a more timely basis and consistently
                communicate the results to the affected stakeholders, with a copy to the co-Chief Privacy
                Officers.

Management’s General Response to Finding 3:

It is true that the Office of General Counsel General Law & Advice Division, Administrative Law Team
provides advice most often upon request, as we are not always made aware of OMB memoranda when
they are issued. However, there is one notable exception to this rule. Every year in connection with the
Financial Statements Audit, the Administrative Law Team conducts a review of all information
technology guidance, laws, and Government-wide rules and regulations passed within the last year. This
documented legal review often includes a review of privacy-related OMB memoranda, since they often
relate to information technology. As a result, yearly reviews are conducted on many privacy-related
guidance.

Additionally, it cannot be assumed that the timing of a legal review will delay the agency’s compliance.
A division/office may determine to move forward with the enforcement of OMB guidance without
seeking legal advice. Finally, as indicated in management’s response to the 2007 audit, management does
not solely base its decision to follow, or not follow, OMB guidance on legal exemptions. Even if the
agency is exempt from following a certain OMB requirement, management may decide to implement it as
a best practice. The decision to implement the requirement is often based on budgetary or resources
concerns, not legality.

Auditor Response:

We acknowledge the annual review process. Our observation and concern is that the FEC as an agency
does not have a formal process to identify, review and address all applicable legal requirements on a
continuous basis regardless of whether the OGC is asked for an analysis. While the agency could take
actions to comply with any particular legal requirement without legal review, we believe a process to
identify and review all applicable requirements will result in greater assurance that the agency is aware of
and ensures actions on those requirements to achieve compliance.

Management Response to 3a:

Management concurs: Management agrees to work with the Office of the Chief Information Officer
(OCIO) and other stakeholders to develop a process for monitoring and/or processing privacy-related
OMB memoranda and Executive Orders for legal review, when necessary.




                                                  21

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 3b:

Management concurs in part: We agree that legal review of privacy-related OMB memoranda should
take place in a timelier manner, and will look for ways to streamline this process. We note that, with
respect to OMB M-08-23, we did not receive a legal review request from OCIO until February 23, 2010,
and thus the legal review was promptly rendered on March 10, 2010. For OMB M-09-02, legal review
was not sought by any of our clients. As a result, Administrative Law was not aware of the memorandum
until it conducted its applicable laws legal review in connection with the Financial Statements Audit.
Additionally, while an initial legal assessment was conducted for OMB M-10-23, on July 8, 2010 (one
day after it was requested), it was determined to be a lower priority to the agency as the Commission is
not extensively involved in third party social media sites such as YouTube or Facebook. The
Commission has recently established a Twitter account. We will reevaluate the memo to determine its
applicability and requirements with respect to the Commission’s Twitter account.

It is important to also note that some OMB guidance that is about IT matters may have privacy
implications, but may not on its face indicate that it is about privacy. Accordingly, in some instances
guidance may be provided relatively soon after a client requests it but some time after it is promulgated.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation. We look forward to reviewing the detailed plan on
how to streamline the review process in the corrective action plan.

Finding 4: A Current PII Inventory is Not Maintained

An inventory of FEC systems that contain personally identifiable information (PII) was conducted by
Solutions Technology Systems, Inc. (STSI) and documented in a report dated May 20, 2009. The report
contained many recommendations to enhance the protection of PII in both paper and electronic form. A
process has not been developed, documented and implemented to periodically update the FEC’s inventory
of PII. Since the report was released more than 18 months ago, the FEC Privacy Team recently prepared
a draft report evaluating the recommendations to determine which will be implemented.

The FEC Privacy Team created a document titled “FEC Plan to Review and Reduce Holdings of
Personally Identifiable Information and Eliminate Unnecessary Use of Social Security Numbers In
Response to OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information.” This document contains a three phase approach to addressing the
OMB requirements. The first phase, to identify uses of social security numbers in the agency, was
completed by STSI as noted above. Phase 2 of the plan, to explore alternatives to the collection and use
of social security numbers, was to be completed by May 2008. Phase 3, implement actions to reduce the
use of social security numbers, where feasible, was scheduled to be completed in November 2008. To
date, neither phase 2 nor phase 3 have been completed and the plan has not been updated to reflect revised
implementation dates. In the Annual Privacy Management Report of the Federal Election Commission
submitted to OMB on November 15, 2010, the Co-Senior Agency Officials for Privacy reported:

        “The Co-Chief Privacy Officers intend to move forward with Phases 2 and 3 of the PII Plan,
        which includes reviewing the proposed recommendations from the Privacy Team, working with

                                                  22

        agency offices to discuss the alternatives to SSN use discussed in the Phase 1 Report, and
        implementing those alternatives if approved. The Privacy Team will also monitor the impact of
        those alternatives on work processes to determine their effectiveness.”

The STSI report identified questionable or unnecessary use of social security numbers by form or
document type, and division. The Privacy Team has not provided the information to the divisions with a
request to explain, support or cease questionable use of social security numbers.

Consolidated Appropriations Act of 2005, Section 522 (a) Privacy Officer states:

        Each agency shall have a Chief Privacy Officer to assume primary responsibility for privacy and
        data protection policy, including – (7) ensuring that the Department protects information in an
        identifiable form and information systems from unauthorized access, use, disclosure, disruption,
        modification, or destruction.

OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
Information, dated May 22, 2007, section B.1, Privacy Requirements -Review and Reduce the Volume of
Personally Identifiable Information, states:

        “Review Current Holdings. Agencies must now also review their current holdings of all
        personally identifiable information and ensure, to the maximum extent practicable, such holdings
        are accurate, relevant, timely, and complete, and reduce them to the minimum necessary for the
        proper performance of a documented agency function.”

OMB M-05-08, Designation of Senior Agency Officials for Privacy, dated February 11, 2005, states:

        “As is required by the Privacy Act, the Federal Information Security Management Act (FISMA),
        and other laws and policies, each agency must take appropriate steps necessary to protect
        personal information from unauthorized use, access, disclosure or sharing, and to protect
        associated information systems from unauthorized access, modification, disruption or
        destruction. Agencies are required to maintain appropriate documentation regarding their
        compliance with information privacy laws, regulations, and policies.”

FEC Privacy Policies and Procedures, undated, Section VII, Security, states:

        “The FEC shall provide security protection for all records that contain personal information
        maintained in FEC’s systems to ensure the accuracy, integrity and confidentiality of the records.
        The FEC’s security protections for systems that store personal information shall include
        appropriate administrative, technical and physical safeguards such as:

            1.   Physical security of both hard copy and electronic data;
            2.   Personnel security for employee and contractor access to data;
            3.   Network security for data in transit; and
            4.   Secure and timely destruction of records.

        The security protection afforded each system shall be commensurate with the risk level and
        magnitude of harm the FEC and/or the record subject would face in the event of a security
        breach.”

There is no requirement to periodically update the inventory of PII that is part of the FEC’s security and
privacy governance approach. Completion of the review of the STSI recommendations and execution of
the “FEC’s Plan to Review and Reduce Holdings of Personally Identifiable Information and Eliminate

                                                  23

Unnecessary Use of Social Security Numbers In Response to OMB Memorandum M-07-16, Safeguarding
Against and Responding to the Breach of Personally Identifiable Information” was not completed due to
other priorities, and the fact that Privacy Team members spend only a small portion of their time on
privacy matters.

The lack of an updated current PII inventory prevents the Commission from effectively evaluating and
ensuring the appropriate protection and disposal of PII. Delays in evaluating and implementing
recommendations in the STSI report result in continued security risks to PII held by the Commission.
The delay in implementing the plan to reduce the use of SSNs, where feasible, results in unnecessary risk
of PII disclosure and increased effort to identify, protect and securely dispose of the information.

Recommendations

We recommend that the FEC:

        4a. 	   Update and maintain the inventory of all systems that contain PII for all the divisions. A
                potential approach is to use the templates created by STSI and have each division update
                their current listing and implement business processes to continually update the inventory
                based on new or revised handling and storage of PII. A full review could be conducted
                by the divisions at least annually and would help support the biennial Privacy Act
                Systems of Records update process.

        4b. 	   Finalize the evaluation of the STSI recommendations and develop, document and
                implement a corrective action plan as necessary. Progress against the corrective action
                plan should be formally and periodically reported to management.

        4c. 	   Provide the Privacy Team’s SSN Reduction Plan Phase 1 report to the applicable division
                heads, and work with those offices to prepare action plans to address the findings in the
                report.

        4d. 	   Complete Phase 2 and Phase 3 of the “FEC’s Plan to Review and Reduce Holdings of
                Personally Identifiable Information and Eliminate Unnecessary Use of Social Security
                Numbers In Response to OMB Memorandum M-07-16, Safeguarding Against and
                Responding to the Breach of Personally Identifiable Information” as soon as practical.
                This can be accomplished by providing the STSI results to the divisions and requesting a
                response on the ability to reduce or eliminate the questionable uses of social security
                numbers already identified by the contractor.

Management Response to 4a:

Management concurs in part: While management concurs in part with this recommendation, we wish
to correct a statement made in the report. The auditors found that “[t]here is no requirement to
periodically update the inventory of PII that is part of the FEC’s security and privacy governance
approach.” This is not true. The “FEC Plan to Review and Reduce Holdings of Personally Identifiable
Information and Eliminate Unnecessary Use of Social Security Numbers In Response to OMB
Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
Information” provides for a biennial review of the agency’s PII holdings as well as its SSN holdings and
SORNs. Additionally, as part of the statement of work for the 2009 PII review, STSI created a proposed
procedure for updating the PII inventory. Thus the agency has incorporated inventory updates into its
overall privacy program. Accordingly, we agree that the PII inventory should be updated but only on a
biennial basis (i.e. the next update would be conducted this year).


                                                 24

With respect to the recommendation that we devolve this responsibility to the system manager level, we
think this is a good idea in the abstract, but in order to implement it we see potential issues with buy-in
and adequate training. A remedy to these issues would of course be essential. Consequently, while we
cannot commit at this time to such devolution, we can commit to strongly considering it.

Auditor Response:

We acknowledge that the “FEC Plan to Review and Reduce Holdings of Personally Identifiable
Information and Eliminate Unnecessary Use of Social Security Numbers In Response to OMB
Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
Information” does state that a “review” of PII will be conducted every two years. If the review includes
updating the PII inventory we agree that a plan is in place. We look forward to reviewing the results of
the consideration of devolving the inventory responsibilities and the planned timeline for such
consideration in the corrective action plan.

Management Response to 4b:

Management concurs: We agree with this recommendation and are already in the process of finalizing
the Privacy Team’s analysis of the PII Review Assessment Report. Upon approval of the Privacy Team’s
recommendations by the Chief Privacy Officers, the Privacy Team will develop a corrective action plan
aimed at addressing the deficiencies found in the review.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 4c:

Management concurs: We agree with this recommendation and will work with affected offices to
prepare action plans to address the SSN Phase 1 Report recommendations once they have been approved
by the Chief Privacy Officers.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 4d:

Management concurs in part: We agree to complete Phases 2 and 3 of the plan as soon as practical, but
believe this can best be accomplished by disclosing the findings of the Privacy Team’s SSN Reduction
Plan Phase 1 report to the applicable division heads, and working with those offices to prepare action
plans to address the findings in the report as recommended in Finding 4c.

Auditor Response:

We agree that the recommendation in 4c should be completed first and encourage Phase 1-3 of the plan to
be completed as quickly as practical as they are significantly behind schedule.




                                                   25

Finding 5: Current Risk Assessments of Systems Containing PII Are Not Performed

Since the 2007 Privacy and Data Protection Audit report was released, the Commission contracted for
secure destruction containers and placed them throughout the building. This allows employees to
securely dispose of paper and electronic medium that contains PII or other sensitive information. In
addition, vulnerability and penetration tests of certain computer applications were conducted in 2009 and
2010. This annual process provides a point in time view into any application and network vulnerabilities,
however, these vulnerabilities can change quickly over time. Further, contractors performed a
comprehensive risk assessment in 2008 for the Administrative Fines, Case Management,
ComprizonBuy/ComprizonSuite, Disclosure System, Presidential Matching Funds, PeopleSoft, and the
FEC Local Area Network (LAN) using the NIST SP 800-30, Risk Management Guide for Information
Technology Systems4 framework. The risk assessments did include an evaluation of remote access to the
FEC LAN, which management informed us is the only approved way to remotely access the FEC
network. However, the risk assessments did not assess PII protection needs of all systems containing PII,
and, since that time, no additional risk assessments have been conducted. The existing risk assessments
have not been reviewed or updated for changes in agency systems.

OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy, states:

         “As is required by the Privacy Act, the Federal Information Security Management Act (FISMA),
         and other laws and policies, each agency must take appropriate steps necessary to protect
         personal information from unauthorized use, access, disclosure or sharing, and to protect
         associated information systems from unauthorized access, modification, disruption or
         destruction. Agencies are required to maintain appropriate documentation regarding their
         compliance with information privacy laws, regulations, and policies”.

FEC Risk Management Policy, 58-2.1 states:

         “c. A risk assessment framework should be established to ensure that risks to FEC electronic
         information and computing resources are regularly assessed. This framework should be designed
         to provide a basis for determining how technical, administrative, physical, and operational risks
         can be managed to an acceptable level;

         d. The risk assessment framework should provide for risk assessments on a recurring basis, in
         accordance with applicable federal guidance; risk assessment information should be updated
         with results of audits, inspections and identified incidents;”

The FEC does not have a requirement to perform periodic risk assessments related to PII. The lack of
periodic risk assessments which specifically assess PII protection needs prevents the FEC from knowing
if PII is being appropriately safeguarded.




4
  This guide provides a foundation for the development of an effective risk management program, containing both
the definitions and the practical guidance necessary for assessing and mitigating risks identified within IT systems.
In addition, this guide provides information on the selection of cost-effective security controls. These controls can
be used to mitigate risk for the better protection of mission-critical information and the IT systems that process,
store, and transmit this information.
                                                       26

Recommendations

We recommend that the FEC:
        5a. 	   Conduct a risk assessment annually for all existing and new applications that collect,
                process, transmit or store PII. If PIAs were performed, a risk assessment component
                could be built into that process to accomplish both the PIA and risk assessment
                recommendations.
        5b. 	   Prepare a documented corrective action plan for any deficiency noted for each risk
                assessment performed and report progress periodically until all corrective actions are
                implemented. The corrective action plan should be approved by management.
        5c. 	   Include all systems containing PII that are being retired in the risk assessments and
                develop action plans to ensure the proper transfer of PII to a new system or the secure
                destruction of the PII in the retired system.

Management Response to 5a:

Management concurs in part: We appreciate the auditors' clarification on February 3, 2011 that this
recommendation relates to electronic systems containing PII, and any paper or electronic documents that
can be generated from those systems. Based upon this clarification, management does not believe that an
annual comprehensive formal risk assessment of such systems is necessary. However, we can agree to
conduct an informal risk assessment in connection with the biennial PII Review similar to that conducted
by STSI, since that review focuses specifically on PII in both electronic and paper systems.

Auditor Response:

While an informal documented risk assessment would be an improvement from the current state, we view
the process conducted by STSI as a formal review and encourage the FEC Privacy Team to follow a
similar process. We look forward to reviewing the details regarding the timing and nature of the planned
risk assessment in the corrective action plan.

Management Response to 5b:

Management concurs in part: In connection with the biennial PII Review, management agrees to
prepare an informal, but documented, assessment of its findings from the review, as well as recommended
action items to address any deficiencies found during the review. Management does not agree to prepare
and conduct such an assessment outside of the biennial PII Review process.

Auditor Response:

A documented corrective action plan should be prepared for each deficiency noted in any risk assessment
regardless of whether the risk assessment is formal or informal or when the risk assessment is performed.

Management Response to 5c:

Management concurs in part: Management concurs with the need to ensure PII in retired systems is
securely transferred, and to that end we agree to develop documented procedures addressing this issue.
However, we disagree that this process requires a risk assessment, and note that we already have policies
and standards in place that address the destruction and security of PII in retired systems (e.g., Media
Disposal Standard and Policy 58-4.2 Media Management Security Policy).



                                                  27

Auditor Response:

We agree that documented procedures that are followed to ensure the secure transfer or destruction of PII
in retired systems is sufficient and a risk assessment would not be necessary. We look forward to
reviewing the details about the development of these procedures in the corrective action plan.

Finding 6: Mobile Computing Policy, Device Encryption and Controls

FEC Policy

FEC Mobile Computing Security Policy, Policy Number 58-4.3, states:

        “All laptops that access the FEC Local Area Network (LAN) will be required to employ whole
        hard drive encryption.”

OMB M-06-16, Protection of Sensitive Agency Information, dated June 23, 2006 states:

        “encrypt all data on mobile computers/devices which carry agency data unless the data is
        determined to be non-sensitive, in writing, by your Deputy Secretary or an individual he/she may
        designate in writing.”

The policy and OMB requirement is not followed for all FEC laptops. Contrary to OMB and the FEC’s
own guidance, the FEC’s current practice is to only encrypt laptops that leave the building. Further, the
primary control to prevent any laptop device from leaving the building is issuance of a FEC property pass
authorizing removal. This control is insufficient and relies on physical enforcement by the FEC security
guards, whereby the guards may stop employees/contractors leaving the building, or
employees/contractors voluntarily indicate to the guards that they have a computer and a current property
pass as they leave the building. It is possible, however, that laptops without property passes can be
removed from the building through the main entrance or from the exit to the parking garage and not be
noticed. For example, a FEC contractor routinely brings a non-FEC laptop with a property pass into the
building and leaves the building through the main entrance. The contractor has never been asked by the
security guards whether he has a mobile device in his bag or asked to display the property pass. Given
the FEC’s building and security configurations, laptops, which may or may not be encrypted, could be
stolen and easily removed without detection. Laptops are a prime target for theft because they can be
easily sold for cash to pawn shops or other individuals over the internet. A stolen or lost unencrypted
FEC laptop containing PII or sensitive information could create a significant liability for the agency. For
this reason, the data on all FEC laptops and mobile devices should be encrypted as stated in the FEC
policy.

Controls to Prevent Access by Non-Encrypted Devices

The 2007 Performance Audit of Privacy and Data Protection audit report recommended that the FEC
implement technical and/or policy controls to prevent local or remote access to Commission resources by
non-encrypted devices. In response to the recommendation, management stated it planned to implement a
network control device in fiscal year 2008. The device would “deny or restrict access to the FEC’s
network for devices not in compliance with the FEC’s policies and minimum settings.”

FEC Mobile Computing Security Policy, Policy Number 58-4.3, states:

        “All staff/contractors who are issued a FEC laptop are authorized for remote access, i.e. (VPN
        and Dial-up)”.

                                                  28

FEC System Integrity Policy, 58-4.6, states:

        “Information System Monitoring Tools and Techniques

        (a) System Owners shall employ automated tools to support near-real-time analysis of events,
        when feasible.

        (b) System Owners shall ensure information systems monitor inbound and outbound
        communications for unusual or unauthorized activities or conditions (e.g., the presence of
        malicious code, the unauthorized export of data, or signaling to an external information
        system)”.

FEC Privacy Protection Policies and Procedures, undated, states:

        “I. Co-Chief Privacy Officers/Co-Senior Agency Officials for Privacy

        The Co-Chief Privacy Officers and Co-Senior Agency Officials for Privacy are responsible for:

        Assuring that the Commission’s use of technologies sustains, and does not erode, privacy
        protections relating to the use, collection, and disclosure of information in an identifiable form;”

OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy, states:

        As is required by the Privacy Act, the Federal Information Security Management Act (FISMA),
        and other laws and policies, each agency must take appropriate steps necessary to protect
        personal information from unauthorized use, access, disclosure or sharing, and to protect
        associated information systems from unauthorized access, modification, disruption or
        destruction. Agencies are required to maintain appropriate documentation regarding their
        compliance with information privacy laws, regulations, and policies.

In the most recent corrective action plan provided for the Privacy follow-up audit, the Privacy Team
stated the network control device “has not been implemented, however we have implemented policies and
procedures to prevent access from non-encrypted laptops either locally or remotely.” According to FEC
management, a network control device was not implemented due to resource constraints, feasibility
concerns, and it was deemed not to be cost-effective.

As noted above, only devices that are expected to leave the building are encrypted and the FEC does not
maintain complete records, by device, listing which mobile computers are or are not encrypted. While
there is limited information on device encryption, however, the information is not used to monitor or
enforce the policy that all laptops that access the LAN “employ whole hard drive encryption.” Detailed
testing showed unencrypted devices access agency networks both locally and remotely. Further, the
agency is not able to adequately track mobile devices that can access FEC networks. Refer to the sections
on Mobile Device Inventory Listing and Policy Exceptions below. As such, we find that neither technical
nor compensating controls have been implemented to prevent local or remote access to FEC networks by
unencrypted devices.

Mobile Device Inventory

As part of our testing compliance with the FEC Mobile Computing Security Policy, 58-4, we requested a
listing of all mobile devices issued to staff and contractors. The initial listing provided appeared to be
incomplete based on our review for recent purchases of Apple computers, iPads, and laptop computers

                                                  29

issued to staff in the Office of the Inspector General. Therefore, a second listing was provided on January
11, 2011 with an assurance by management that the listing was complete and accurate, except for the
iPads that had been recently purchased and issued, but not yet added to the inventory listing. Review of
that updated listing again indicated it also might not be complete or accurate. We compared the second
mobile device listing to the FEC staffing report at December 18, 2010 and identified 79 employees with
no assigned mobile computers (i.e. Apple MacBook, Acer netbook, Dell laptop, or Apple iPad). The
listing seemed inconsistent with roles, responsibilities, or grade level of many of the 79 individuals and
the expectation that these individuals would have a mobile device based on their job function. Therefore,
we judgmentally surveyed 28 of the 79 listed employees and requested they respond to whether they
currently have mobile computing devices issued by the FEC, and if so, to provide the barcode if it was
available. Twenty-four (24) responded and most indicated they had been issued mobile computing
devices. Seven (7) of those responding had more than one device. One person had four laptop
computers, none of which were included on the FEC’s inventory listing. One respondent had two
MacBooks, neither of which contained a barcode. Only two (2) of the 28 employees surveyed responded
that they did not have a mobile computing device. In total, thirty-three (33) mobile computers were
identified through our survey which were not included on the second asset listing provided. Our review
of the details provided by some employees surveyed showed data collected via barcode scanner during
the FEC’s annual wall-to-wall inventory in July 2010 was not uploaded to the inventory listing; this
appears to be at least one reason why the inventory listing is inaccurate.

We also noted several former employees and former contractors were included in the asset listings
provided for the follow-up audit. The second asset listing had four (4) former contractors and five (5)
former employees listed as still having mobile devices. One of the former employees listed left the FEC
in August 2008, while another left in August 2009. We identified several other employees and
contractors who left the agency between September and December 2010, and the asset listing was not
updated to reflect the current location of the mobile devices assigned to the former employees/contractors.

Based on initial audit results reported to management, a third asset listing was provided, along with a
system report of FEC users and devices encrypted. The ‘listing of encrypted devices’ had 209 records
which could be linked, by barcode, to a specific mobile computing device. However, the ‘asset listing’
had 4965 mobile computing devices which, according to the FEC policy, should be encrypted if issued to
staff or contractors. Comparing the listing of encrypted devices to the asset listing provided the following
results:

    •	 Of the 209 listed encrypted devices, 186 encrypted devices were matched to mobile devices
       included on the asset listing, including one desktop system. Review of the desktop system
       showed encryption was not installed. This indicates at least one encryption record is not accurate.

    •	 Of the 209 listed encrypted devices, there were 23 devices which could not be linked to mobile
       devices included on the asset listing. These items were compared to asset disposal records from
       2010, but it does not appear the items were disposed of by the agency. This indicates the third
       and most recent asset listing provided is not complete or accurate.

    •	 Of the 496 mobile computers included in the third asset listing, there were 314 mobile devices
       that could not be linked, by barcode number, to encryption records. Based on a statement by ITD
       staff that the FEC has approximately 500 encryption licenses, it is likely the majority of the
       devices are encrypted, however there is no way to verify the encryption status the majority of
       FEC mobile computing devices without physically reviewing the device.



5
 The count is exclusive of Apple iPads mobile computing devices that are not encrypted and are undergoing test and
evaluation by the FEC ITD division.
                                                     30

In order to further assess whether the FEC has a complete and accurate list of all encrypted mobile
devices, we reviewed asset purchases and identified purchases of Dell D630 model laptops issued to FEC
employees and contractors. One hundred and fifty (150) D630 computers were purchased in November
2007 and another one hundred (100) were purchased in August 2008, for a total of two hundred-fifty
(250) computers. The first asset listing provided during the audit had 213 D630 laptops, the second
listing 221, and the third asset listing provided showed 232 D630 laptops were issued to FEC employees
and contractors. Our review of the agency’s computer asset storage areas and ITD staff offices located
another six (6) D630 laptops, and another two (2) were identified by reviewing the 2010 inventory scan
listing for contractors. In total, ten (10) D630 computers were not located and could not be accounted for.
Because the annual wall-to-wall inventory performed does not begin with a reconciliation of asset
purchases to the fixed asset listing, the FEC may be missing any number of computer assets which are
undetected.

The inability to produce a complete and accurate listing of all mobile devices appears to be due to a defect
in the design or use of the fixed asset accounting system for mobile devices. Because of the lack of an
accurate, updated inventory, the FEC cannot state with reasonable certainty that all mobile devices
purchased and in use are encrypted, in accordance with the stated policy, and there may not be an
adequate record of the current location or to whom the mobile devices are issued. Further, because the
asset listing is not reconciled to assets purchased, or adequately maintained, the FEC must rely on
employees reporting theft or loss to adequately control computer equipment. Lost or stolen devices could
be used to gain unauthorized access to FEC systems that contain PII and the FEC may be unable to
determine whether a breach of PII has occurred.

Exceptions to FEC Encryption Policy

The FEC grants exceptions to the policy requiring all laptops be encrypted, and all mobile devices be
encrypted and/or password protected.

Apple MacBooks

During the 2007 Privacy and Data Protection Audit, the FEC had fourteen (14) Apple MacBooks and
three (3) other laptop computers that were not encrypted. During this follow-up, because the initial asset
listing provided did not include Apple computers, we specifically requested information on MacBook
computers issued to staff and contractors, and whether or not the devices were encrypted. We were
informed that thirteen (13) devices were issued to employees and that the devices were encrypted and had
SecuriKeys; an additional three (3) MacBook devices were issued to ITD staff but not encrypted due to
“testing purposes and are not removed from the building.” FEC staff stated that exceptions to the policy
that all laptops have encryption could only be made by the CIO. We note, however, that the policy does
not stipulate: that exceptions are allowed; whether a documented risk assessment is required before
granting an exception; who may approve the exception; or how the requests and approval of exceptions
are to be documented. There were no documents to support the policy exceptions for mobile devices that
were not encrypted noted during this follow-up audit.

We met with one of the Information Technology Division (ITD) employees issued an unencrypted
MacBook who explained that encryption was not installed on the computer because no licenses were
available at the time. The employee further explained that encrypting the device would have had no
impact on device use and testing performed. The employee stated that the device was taken out of the
FEC and used to access the network remotely. The device has since been encrypted and verified by
auditors through direct observation. We were informed the other two MacBooks are scheduled for
encryption once the employees bring them from home.



                                                  31

The January 2011 asset listing showed fourteen (14) employees were issued MacBooks. The following
differences were noted between that inventory listing and the email provided by management listing the
encrypted and unencrypted MacBooks in December 2010:

    •	 Three Information Division employees listed as having MacBooks in the email were not included
       on the asset listing;
    •	 One of these three employees has since responded to the audit inventory survey and stated they
       have two MacBooks, an older model and a new model. Both devices are barcoded. It appears
       some Information Division employees may have been issued laptops several years ago and those
       devices are not reflected in the asset listing or the 2010 inventory; and
    •	 Three employees with four (4) total MacBooks were included in the asset listing but not in the
       email describing which MacBook devices were or were not encrypted.
    •	 The asset listing does not reflect the three ITD staff described in the email as issued unencrypted
       MacBooks.
    •	 None of the three asset listings provided nor the December 2010 email reflected two MacBooks
       held by one Information Division employee. The devices were not barcoded or encrypted6.

The FEC purchased one (1) MacBook on February 26, 2010 and twenty (20) MacBooks on September 20,
2010. It is unclear how many MacBooks were previously purchased and issued to FEC staff and whether
or not the devices were or were not encrypted. The discrepancies noted with the various asset listings
indicate a complete inventory, based on agency purchases and disposals, is required.

Apple iPads

There are also seven mobile iPads being evaluated by the ITD that connect to the FEC network, are
removed from the building and are not encrypted. The devices are not barcoded and are not included in
the fixed asset listing7. These devices also have AT&T wireless data plans for six months. There is no
documented approval for the iPad exception from the encryption policy, but ITD staff pointed out that the
assets have the ability to be remotely wiped if the devices are reported lost or stolen. We were informed
that the devices were password protected. Management represented that the password requirements for
iPads is being evaluated and currently a 4 digit personal identification number (PIN) is the only
requirement. In order to protect FEC data, we were told that staff issued iPads were verbally instructed to
not save FEC information to the device.

We performed a quick query with Apple on iPad security features and learned that the device includes
numerous security features, to include imbedded encryption (“iPad in Business Security Overview”
published in April 2010 by Apple). Based on the information provided by ITD staff testing the devices, it
appears an inadequate risk assessment and security research was performed for these devices prior to
granting access to FEC networks. Instead, there was a reliance on verbal instructions to not download
any FEC data on these devices.

Blackberrys

FEC Mobile Computing Security Policy, Policy Number 58-4.3, also states:
         “All mobile computing devices including Blackberries and Palm Pilots must be encrypted and/or
         password protected.”



6
  Since initially reporting this finding to management, the newest MacBook issued to the employee has been

encrypted and barcoded. The older MacBook has been returned to ITD for secure disposal. 

7
  The devices have since been barcoded and were included in the third asset listing provided by management. 

                                                      32

This statement in the policy is not clear on which devices may be only password protected, compared to
others that must be encrypted and password protected. This standard is inconsistent with the statement
on page 2 of the same policy that:

        “All laptops that access the FEC Local Area Network (LAN) will be required to employ whole
        hard drive encryption.”

Blackberrys assigned to FEC employees and contractors are not encrypted. These devices are password
protected and there is the ability to remotely “wipe” a Blackberry if it were reported lost or stolen.
Blackberrys can and should be encrypted and password protected to the same standards as other mobile
computing devices.

The FEC did not fully implement OMB M-06-16, Protection of Sensitive Agency Information, due to
concerns about the amount of system overhead resulting from Blackberry encryption. The lack of
encryption on all laptops, iPads, and Blackberrys places the data resident on these devices, which could
include PII or FEC sensitive information, at greater risk of unauthorized disclosure if the devices are lost
or stolen. The consequences could then be:

    •   damage to the individuals whose personal information was disclosed;
    •   adverse media coverage and embarrassment for the FEC and potential Congressional inquiry;
    •   financial consequences to address an unauthorized disclosure of information; and
    •   potential litigation.

Encryption Passphrases for Contractors

We were informed by the Information Systems Security Officer that encrypted laptops assigned to
contractors use an encryption passphrase assigned by the FEC. This is done to allow access to the
information on the laptop if the contractor suddenly or unexpectedly departed the FEC. This process
differs from that of FEC employees, who choose their own unique passphrase. Based on mobile devices
assigned to contract auditors as part of another follow-up audit, it appears the same passphrase is used for
all contractors. The passphrase assigned to contractors is not suitably complex, is relatively intuitive, and
could be easily guessed or “hacked” by using basic password detection or “cracking” software. The lack
of a unique secret passphrase for each individual increases the risk that the data on that laptop could be
accessed by an unauthorized individual.

Recommendations

We recommend that the FEC:

        6a. 	   Modify the Federal Election Commission Mobile Computing Security Policy, 58-4, to
                require all mobile devices, including Blackberrys, be encrypted.
        6b.     Revise Federal Election Commission Mobile Computing Security Policy, 58-4 to specify
                when any exceptions to policy may occur, who may approve the exception, the risks to
                PII if an exception is granted and any compensating controls, and the level of
                documentation required to support the exception.
        6c. 	   Record all mobile computing devices in inventory when received.
        6d. 	   Perform a review of the process and systems used to maintain the inventory of mobile
                devices to ensure that they are appropriately designed to maintain a complete and
                accurate inventory. A complete physical inventory of all mobile devices purchased less


                                                   33

                 those disposed should be performed and reconciled to the existing mobile device
                 inventory listing.
        6e.      Include a record in the inventory listing of whether the device is encrypted or not.
        6f.      Implement a process and form requiring employees and contractors to sign when they
                 receive a mobile device acknowledging their receipt of the asset and maintain a record of
                 these sign-offs.
        6g.      Implement an alternative to assigning a generic laptop encryption passphrase to
                 contractors so that every contractor has a unique self selected passphrase, while
                 maintaining the ability to decrypt the stored data in the event of an unexpected departure.
                 The ability to recover unencrypted data of an employee should also be in place.
Further Information on Encryption

There have been significant advances in encryption efficiency over the past few years. Encryption, when
properly implemented can provide reasonable security to protect data from unauthorized disclosure.
Implementing the recommendation to encrypt all mobile devices would provide consistency with OMB
M-06-16 dated June 23, 2006 which states “encrypt all data on mobile computers/devices which carry
agency data unless the data is determined to be non-sensitive, in writing, by your Deputy Secretary or an
individual he/she may designate in writing.” In addition, encryption can provide an organization a safe
harbor in the event of a security breach. For example, Senate bill S.139 – “Data Breach Notification
Act” provides that the notification to affected individuals would be required unless a risk assessment
concludes that there is no significant risk that a security breach has resulted in, or will result in, harm to
the individual whose sensitive PII was subject to the security breach. There will be a presumption that no
significant risk of harm to the individual whose sensitive PII was subject to a security breach if such
information was encrypted. There is also a presumption of no significant risk or harm if the data was
rendered indecipherable through the use of best practices or methods, such as redaction, access controls,
or other such mechanisms, that are widely accepted as effective industry practice, or an effective industry
standard. While this and similar bills have not passed into law as of yet, encryption of all mobile devices
will allow the FEC to proactively address a likely legal protection for the future, as well as avoid an
embarrassing event if an unencrypted mobile device with PII was lost or stolen and the PII was exposed
or misused.

Management's General Response to Finding 6:

Prior to responding to the specific recommendations, we would like to generally respond to some of the
statements made for this finding. While we concede that the physical inventory process could be
improved, an audit of this process was recently completed during the Inspector General’s Audit of the
Commission’s Property Management Controls. We respectfully suggest that pure inventory control
issues were more appropriately within the scope of that audit than this one, and we therefore defer to
management’s responses to that audit where the findings in this report overlap. Also, the report contains
many comments regarding unnamed employees who are in receipt of multiple laptops or mobile devices.
However without knowing the names of these employees we cannot make a determination as to whether
they possess the multiple devices for legitimate business reasons. For instance, several IT personnel
possess multiple laptops for various legitimate technological testing purposes. In order to ensure the
accuracy of those tests it is necessary that these employees maintain multiple devices, often times with
differing security controls. Thus, the fact that an employee possesses multiple devices is not in and of
itself a privacy or security danger.

Auditor Response:

Included in the scope of this review was testing of a sample of laptops to verify that encryption was
installed on these devices in accordance with current FEC policy. To select a sample of devices for
                                                   34

testing from which we could draw a valid conclusion, we required a complete and accurate listing of
laptops. For this reason, the laptop inventory listing was part of the scope. The original and revised
listings provided to us contained numerous inaccuracies. As a result, we could not determine with a high
degree of precision how many laptops exist at the FEC or to whom, if anyone, they were assigned.
Therefore, we were not able to rely on these listings for testing. We acknowledge that multiple devices
can be assigned to an employee; however, these devices should all be properly recorded in the inventory.
We will provide all the details we have documented to management. We look forward to reviewing the
results of management’s review of the inventory records and explanation of whether employees with
multiple devices are for legitimate business reasons.

Management Response to 6a:

Management concurs in part: Management agrees that encryption is a powerful tool in protecting
sensitive information from breach. However, because the encryption process is tied to an individual user
(e.g., an encrypted device requires that the user enter a unique passphrase and password tied to the
individual in order to get into the laptop) encryption would not be practical for a device that is used by
multiple people (e.g., laptops attached to scanners). For that reason, management agrees to ensure that all
unencrypted laptops will be locked and secured with a security cable so as to prevent removal from the
building. All other laptops (i.e. those assigned to a specific user) will be encrypted. With respect to
Blackberries, it is our understanding that the transfer of information to Blackberries is encrypted while in
transit, and that the Blackberries were recently updated to include encryption at rest. Management will
continue to investigate mechanisms for securing other mobile devices. It should be noted that the OCIO
has the ability to conduct remote wipes of information on mobile devices so as to minimize the effects of
a loss. Finally, Management also agrees to modify its Mobile Computing Policy to accurately reflect its
encryption practices.

Auditor Response:

We encourage management to confirm that the encryption functionality is activated for all FEC
Blackberry devices. We also look forward to reviewing the details regarding the timing of the policy
update in the corrective action plan. The agency’s planned action is responsive to the audit issue
identified and when fully implemented, should satisfy the intent of the audit recommendation.

Management Response to 6b:

Management concurs in part: We do not agree that exceptions to the Mobile Computing Security
Policy should be noted in the policy itself, since exceptions are rare and are granted on a case-by-case
basis. We do agree that the policy should be revised to reflect that exceptions to the policy must be
granted by the CIO. We do not agree to specify risks to PII if an exception is granted, since that is
already a component of the FEC’s Certification & Accreditation program. Nor do we believe it is
appropriate to include specific risks to PII, if an exception is granted, in this policy document since the
risks will depend on the specific exception and the facts warranting the exception. We do however intend
to inform those that are granted an exception of the risks to PII associated with the exception granted.

Auditor Response:

We are not recommending that the policy be modified to describe specific exception scenarios, but that
the process by which an exception is requested, approved/denied and documented be a matter of policy.
We believe it is important to consider the risks to PII for every exception request as they will vary on a
case-by-case basis and may not have necessarily been considered as part of the FEC’s Certification &
Accreditation program.


                                                  35

Management Response to 6c:

Management does not concur: Management respectfully believes that this finding goes beyond the
scope of this audit, and refers to its General Response to Finding 6. To the extent this finding relates to
the securing of data on mobile devices, we agree that encryption can be used for that purpose and refer the
auditors to our response to 6a.

Auditor Response:

See Auditor Response to Management’s Response to Finding 6 and 6a.

Management Response to 6d:

Management does not concur: Management respectfully believes that this finding goes beyond the
scope of this audit, and refers to its General Response to Finding 6. To the extent this finding relates to
the securing of data on mobile devices, we agree that encryption can be used for that purpose and refer the
auditors to our response to 6a.

Auditor Response:

See Auditor Response to Management’s Response to Finding 6 and 6a.

Management Response to 6e:

Management does not concur: Management agrees to review its inventory process to determine
whether it is necessary to combine the inventory list and the encryption list to ensure the protection of PII
information.

Auditor Response:

We believe that maintaining a record of whether the device is encrypted in the inventory list will allow
management to quickly know if a lost or stolen device was encrypted, which is necessary to understand
the resulting risk to the information that was stored on the device. We look forward to reviewing the
details in the corrective action plan for improvements to the inventory process.

Management Response to 6f:

Management does not concur: Management respectfully believes that this finding goes beyond the
scope of this audit, and refers to its General Response to Finding 6. To the extent this finding relates to
the securing of data on mobile devices, we agree that encryption can be used for that purpose and refer the
auditors to our response to 6a.

Auditor Response:

See Auditor Response to Management’s Response to Finding 6 and 6a.

Management Response to 6g:


Management concurs: Management agrees to provide contractors with unique passphrases for laptops.





                                                   36

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Finding 7: Safeguards Over Sensitive Agency Information and PII Need Improvement

We performed an after-hours walkthrough of the Commission building on November 10, 2010 and
January 19, 2011, and noted some improvements since the prior walkthrough performed by Cotton &
Company and OIG staff in November 2007, such as:

    •	      Many offices were locked, effectively securing the contents from other employees,
            contractors or visitors, but not facility maintenance or cleaning staff that have a master key
            for all locks.
    •	      There were secure shred bins and shredders throughout the building. The secure shred bins
            were padlocked.

During the walkthrough, we also identified several instances where sensitive information and PII was
easily accessible to unauthorized personnel. We concluded that controls are not adequate to ensure that
sensitive information, including personally identifiable information (PII) collected, processed, or stored
by the FEC has been adequately safeguarded. Specific examples of weaknesses observed include:

    •	 Individuals’ applications for FEC employment containing names, addresses, phone numbers, and
       social security numbers were located in an unsecured office.
    •	 Confidential blue folders possibly containing sensitive information or PII were in unsecured areas,
       such as in common area mail slots and on desks in common areas.
    •	 FEC employee and contractor PII was noted in unclaimed print jobs near common area printers in
       unsecured areas.
    •	 Some employees left their personal mail including credit card statements, bank statements,
       medical insurance information, and utility bills, etc. in plain view. One employee left their
       Federal credit card statement in plain view. This observation is potentially indicative of a lack of
       understanding of the importance of protecting not only employees’ own personal PII, but also the
       PII that has been entrusted to the FEC.
    •	 Modular workspaces and unlocked offices often had unsecured laptop computers that contained
       SecuriKeys (a hardware device that is inserted into the computer and is a second factor of
       authentication, in addition to the user ID and password), including a number of Apple laptops.
       None of the Apple laptops had a security cable attached to prevent someone from taking the
       laptops outside the building.
    •	 One employee left a post-it note with an encryption pass phrase, network log-on, and password
       on their desk. Passwords on post-it notes were also noted for several employees in one division.
    •	 Filing cabinets located in common storage areas for one division was deliberately left unlocked.
       Some had keys taped to the cabinets while others had the locks disabled with masking tape.
       Contents of many cabinets included documents marked “sensitive.”
    •	 “Matters Under Review” (MURs) and other sensitive work product documentation was found in
       unsecured areas, such as on employees’ desks and in unlocked common area cabinets. Typically,
       the work products did not contain security classification labels such as “sensitive” or
       “confidential,” but should have, to reflect the confidentiality of the information.
    •	 FEC confidential and proprietary documents produced by three different contractors as part of
       their service to the FEC were left unsecured in modular work space for up to two years. Some of
       the documents contained process flow diagrams for FEC applications and assorted procedural
       documents. Some of the documents were labeled “Confidential” and “Confidential Do Not
       Distribute,” while others appeared sensitive but were not labeled.
                                                   37
FEC Privacy Policies and Procedures8, Section VII, Security, states:

          “The FEC shall provide security protection for all records that contain personal information
          maintained in FEC’s systems to ensure the accuracy, integrity and confidentiality of the records.
          The FEC’s security protections for systems that store personal information shall include
          appropriate administrative, technical and physical safeguards such as:

          1.   Physical security of both hard copy and electronic data;
          2.   Personnel security for employee and contractor access to data;
          3.   Network security for data in transit; and
          4.   Secure and timely destruction of records.

          The security protection afforded each system shall be commensurate with the risk level and
          magnitude of harm the FEC and/or the record subject would face in the event of a security
          breach.”

Consolidated Appropriations Act, 2005, Section 522 states:

          Section (a)(7): “Each agency shall have a Chief Privacy Officer to assume primary responsibility
          for privacy and data protection policy, including ensuring that the Department protects
          information in an identifiable form and information systems from unauthorized access, use,
          disclosure, disruption, modification, or destruction.”

          Section (a)(1): “Each agency shall have a Chief Privacy Officer to assume primary responsibility
          for privacy and data protection policy, including assuring that the use of technologies sustain,
          and do not erode, privacy protections relating to the use, collection, and disclosure of
          information in an identifiable form.”

OMB M-05-08, Designation of Senior Agency Officials for Privacy, dated February 11, 2005, pg. 1,
states:

          “As is required by the Privacy Act, the Federal Information Security Management Act (FISMA),
          and other laws and policies, each agency must take appropriate steps necessary to protect
          personal information from unauthorized use, access, disclosure or sharing, and to protect
          associated information systems from unauthorized access, modification, disruption or
          destruction. Agencies are required to maintain appropriate documentation regarding their
          compliance with information privacy laws, regulations, and policies.”

Commission Document Security Classification and Labeling

As noted above, the walkthrough showed improvement is needed in classifying and labeling documents
that contain sensitive information or PII. The FEC Information Classification Policy 58.1.3 states:
          “An information security model should be developed to assist FEC management with classifying
          and securing information. This information security model is to be used only as guidance not as
          a standard.”
Although the Federal Election Commission Guide to Protecting Sensitive Information describes the two
classes of information held by the agency as “public” and “sensitive” (a.k.a. confidential), it does not



8
    The policy was approved by the Commission on December 4, 2007. The document is not dated.
                                                     38

specify the need to label electronic files so that when the files are printed, the documents indicate whether
they are sensitive and need to be stored securely. The guide does state:

               “Information identified as sensitive should not be left in areas where unauthorized persons
               may have an opportunity to view it. This includes your work area. A screen filter may be an
               option to consider. Sensitive documents that are to be disseminated via internal mail shall be
               enclosed in an envelope marked sensitive and/or confidential.”

The guide does not require the divisions to use templates that include security classification labels in the
header and/or footer of a file so that the classification can be viewed on screen and on each printed page.
Including a requirement to identify sensitive work products and develop standard forms with embedded
security classifications markings would ensure printed documents are labeled so that the need to
physically secure them is evident. As an example of a labeling weakness detected during the walkthrough,
we noted a group of eleven (11) FEC forms, some one page and others multiple pages, left unsecured by
former contractors. Seven of the forms were labeled “confidential” on the first page. One of the forms
had the security classification included on each printed page. Three forms did not include the security
classification on the first page, but the “confidential” label was located on at least one page of the
multipage documents. It appears the security classification label intended for the first was displaced by
the amount of data included on the first page of the form, forcing the security label to print on page two of
the document. One form had no security classification label, but should have been labeled.

As noted above, filing cabinets in common areas of one division were disabled to prevent locking or had
keys attached to ensure they could be accessed by all staff. Some of the cabinets had files marked
sensitive and some had PII, such as copies of personal checks with banking information. A door to a
common file room was unlocked and had a note requesting staff not lock the door. Most filing cabinets in
that room were locked, however two were unlocked. The files in the two unlocked cabinets included
some documents marked sensitive, and others that were not labeled, but due to the content, should have
been labeled “sensitive.”

The FEC does not have detailed procedures for classifying and labeling sensitive information. In
addition, the divisions may not have adequately communicated secure storage needs, including the need
to have secure storage accessed by a group of employees, to the FEC Security Officer and Records
Manager. Sensitive documents, including those with PII, could be accessible by FEC staff, contractors,
or service personnel such as cleaners and facilities maintenance staff that do not have a valid business
need to access the records. This increases the risk of data breach and unauthorized disclosure.

Requirement to Review Current Security Designations

President Obama issued Executive Order 13556, Controlled Unclassified Information on November 4,
20109. The executive order recognized the fact that:

           “At present, executive departments and agencies (agencies) employ ad hoc, agency-specific
           policies, procedures, and markings to safeguard and control this information, such as
           information that involves privacy, security, proprietary business interests, and law enforcement
           investigations. This inefficient, confusing patchwork has resulted in inconsistent marking and
           safeguarding of documents, led to unclear or unnecessarily restrictive dissemination policies, and
           created impediments to authorized information sharing. To address these problems, this order
           establishes a program for managing this information, hereinafter described as Controlled
           Unclassified Information, that emphasizes the openness and uniformity of Government-wide
           practice.”

9
    Executive Order 13556 is included as Attachment 4 of this report.
                                                        39

As a result of this executive order, by May 4, 2011, the FEC will be required to:

        (1) “review all categories, subcategories, and markings used by the agency to designate
            unclassified information for safeguarding or dissemination controls; and

        (2) submit to the Executive Agent a catalogue of proposed categories and subcategories of CUI,
            and proposed associated markings for information designated as CUI under section 2(a) of
            this order. This submission shall provide definitions for each proposed category and
            subcategory and identify the basis in law, regulation, or Government-wide policy for
            safeguarding or dissemination controls.”

The National Archives and Records Administration (NARA) serves as the Executive Agent to implement
this order and oversee agency actions to ensure compliance with this order. By implementing Executive
Order 13556, the FEC will assess current categories, subcategories, and markings used by the agency to
designate security classifications. Based on the assessment, the agency will then have the opportunity to
propose standards and definitions for security categories and markings to NARA. Once the assessment
process has been completed and approved by NARA, the FEC can implement procedures to ensure the
standards are applied and enforced throughout the Commission.

Contractor Records

The FEC’s Procurement Procedures – 020 Contracting Officer Technical Representative (COTR)
Program, states:

        “If contractor employees (or their subcontractors) will have access to FEC property (real,
        physical, or electronic), you must ensure that they follow the provisions of the contract and
        comply with the guidelines established by the FEC, including but not limited to, guidelines
        related to information about individuals and commercial information owned by other third
        parties, including personally identifiable information, protected by the Privacy Act and other
        federal laws for the protection of government property;…”

Standard language in FEC contracts includes the following:

        “NON-DISCLOSURE OF CONFIDENTIAL DATA STATEMENT: As Required in writing by
        either the Statement of Work, Contracting Officer or COTR - - Within ten business days of receipt
        of notice of award, the contractor shall provide a signed copy of the FEC Non-Disclosure
        Agreement (See Attachment 6) for all personnel involved in the engagement. Approved
        replacement personnel shall provide a completed agreement when assigned to this contract. No
        access will be given until the Non-Disclosure Agreements are provided to the Contracting Officer
        with a copy to the COTR.”

As part of the FEC’s contracting process, contractors are required to sign a non-disclosure agreement
which defines the standards for protecting sensitive information as well as PII during the course of service
delivery.

    2. 	“Disclosure of FEC information. I agree to hold the FEC’s sensitive, protected, and confidential
         information, including personally identifiable information, in whatever form or format, in strict
         confidence, and to take all reasonable precautions to protect against unauthorized use or
         unauthorized disclosure of such information, including but not limited to compliance with the
         Rules of Behavior and Acceptable Use Standards for Federal Election Commission Information
         and System Resources.

                                                  40

       4.	 Duty to report. I agree to report immediately to an appropriate employee of the FEC any
           unauthorized use, unauthorized disclosure, or other breach of sensitive, protected, and
           confidential information of which I become aware, or which I suspect has occurred or may
           occur.”

The non-disclosure agreement also defines the return and destruction processes required at the conclusion
of the contract as follows:

       5.	 “Return of FEC material and information. At the conclusion of my work under this contract, I
           will return to the FEC (or destroy, upon written approval of the Contracting Officer) all FEC
           material, including copies, and all records containing FEC material and information.

       6.	 Destruction of Personally Identifiable Information (PII). Prior to final payment on the contract, I
           will verify with the COTR and/or contracting officer that I have destroyed any and all FEC PII
           that has come into my custody while working for or at the FEC. The destruction method must be
           consistent with FEC IT Security Policies.”

In providing services to the Commission, contractors are given access to FEC systems and records that
are sensitive or confidential. The results of the walkthrough showed that at least three contractors failed
to comply with the policy and did not:

       •	 take reasonable care to protect “FEC’s sensitive, protected, and confidential information, 

          including personally identifiable information”10; 

       •	 include adequate security classifications and labeling on files to indicate the need to store printed
          documents in a secure location;
       •	 return FEC materials and information to the COTRs at conclusion of service delivery; and
       •	 remove and destroy excess records not needed for its own official record of service delivery to the
          Commission.

For these contracts, the Commission may not have received, and the COTRs may not have requested, a
final certification from the contractor or verified that the certification was accurate prior to approving
final payment. COTRs are not required to perform a walkthrough of the space used by contractors to
verify that all paper or other documents or records were securely disposed of or filed at the end of the
assignment. The FEC may not enforce the contract requirement that contractors certify secure disposal,
destruction or return of FEC records prior to final payment.

Specialized Training

In the PII Assessment Report provided to the FEC on May 20, 2009 by STSI, the contractor
recommended as a short term task that the agency “Expand training of employees and contractors on the
specific procedures necessary to safeguard documentation containing PII processed during the course of
their duties.” The FEC has not yet developed division level or job/role specific privacy training to
address the different operating environments throughout the agency. The results of the walkthrough
indicated more specialized training for some divisions or job specific roles may be required to ensure
adequate protection of sensitive information and/or PII. Lack of detailed training on business processes
and forms unique to the various divisions in the agency prevents employees from fully adopting privacy
and data protection best practices specific to their roles and responsibilities. The FEC has recently
completed a draft evaluation of the recommendations of the STSI PII Assessment Report and has not


10
     Two contractors left their own PII unsecured in a modular workspace.
                                                        41

implemented the recommendation to develop more detailed training specific to divisions or
roles/responsibilities.

Securing Mobile Computing Devices and Passwords

The 2007 Privacy and Data Protection Audit walkthrough results showed that some FEC employees had
not adequately secured their laptop computers by removing the SecuriKey device or protected their log-on
and password. In response to the 2007 audit walkthrough results, the 2008 Mandatory Security
Awareness Training stressed the need for employees and contractors to comply with Rules Of Behavior
and Acceptable Use Standards For Federal Election Commission Information systems and Resources,
specifically:

   •	 Section 8.d - “Protect your password from disclosure. Specifically, do not post your password in
      your area.”
   •	 Section 18 - “Protect FEC commuting resources from theft or loss; take particular care to
      protect any portable devices and media entrusted to you, such as laptops, cell phones, palm-top
      computers, disks, CDs, and other portable electronic storage media.”

In the 2008 and 2009 FEC Privacy 101 Training presented to employees and contractors via PowerPoint,
the slide on laptop security stressed that “all FEC laptops must be secured with a security cable” and
“when leaving your office, the secure key (SecuriKey) should be removed or your door locked.” The
walkthrough results of this follow-up audit indicate that training alone is not sufficient to ensure
employees and contractors comply with FEC privacy and data protection policies, procedures and
standards. The annual IT Security and Privacy training may not be practiced by employees and
contractors because neither the ISSO nor the Security Officer performs regular walkthroughs to verify
that Commission staff complies with privacy and data protection standards.

Recommendations

We recommend that the FEC:

       7a. 	    ISSO, Physical Security Officer, and/or division management should conduct regular
                walkthroughs to ensure that agency staff complies with privacy and information security
                standards;

       7b. 	    Should emphasize document labeling requirements with all staff and standard document
                templates with labels be created and the use monitored;

        7c. 	   Should develop a plan to implement Executive Order 13556, Controlled Unclassified
                Information, and comply with future directives issued by NARA;

        7d. 	   Division managers should work with the Physical Security Officer and the Records
                Officer to assess records management and secure storage needs and address failures to
                adequately secure sensitive information noted during the walkthrough;

        7e. 	   Contracting Officer and COTRs should enforce the requirement for contractors to certify
                secure destruction or return of FEC information in both paper and electronic format;

        7f. 	   Should establish policy and procedures requiring COTRs to inspect the physical space
                occupied by contractors when the contractor departs to ensure paper and electronic
                records are securely disposed of or filed; and


                                                42

        7g. 	   Should implement the plan to develop and deploy privacy training specific to the
                individual divisions.

Management Response to 7a:

Management concurs: Management will commit to having the ISSO, Physical Security Officer and
other management officials as appropriate participate in occasional walkthroughs of the building to ensure
privacy and information security standards are being met. This commitment is subject to Commission
approval of this policy.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation. We look forward to reviewing the details
regarding the timing and scope of the planned walkthroughs in the corrective action plan.

Management Response to 7b:

Management does not concur: Management does not believe it is practical to require staff to label
every document created by employees. Such a requirement could slow down Commission work
processes. Moreover, we believe that the prescribed privacy benefit of labeling (i.e. that persons will treat
documents marked “Sensitive” in a different manner than documents that are not marked) is not
necessarily realistic.

Auditor Response:

Currently, the lack of an agency-wide labeling process relies on each employee making a determination of
how a particular document or file is to be protected. As a result, the protection of information may or
may not be adequate or meet the expectations of FEC leadership. The recommendation would involve
management establishing standard document templates so that staff would not be required to make these
decisions.

Management Response to 7c:

Management concurs in part: Management agrees and has developed a plan to implement Executive
Order (EO) 13556. However, based on our conversations with National Archives and Records
Administration (NARA) officials, we believe the agency’s responsibilities under this EO are different
from what the auditors appear to think they are. We spoke to Carla Riner, Lead for Policy and Strategic
Planning for the Controlled Unclassified Information Office of NARA, who was a part of the team that
drafted Executive Order 13556. According to Ms. Riner, the purpose of EO 13556 is not to label every
document in the agency, but to ensure that the labels agencies are currently using are legally mandated.
To that end, agencies were asked to fill out a matrix by no later than May 4, 2011, including information
the agency "would like to be considered controlled" and the law that requires that the information be
protected. After agencies submit the matrix information, NARA will issue a series of instructions to
"phase in" implementation of the government-wide labeling system. To the extent this recommendation
asks management to comply with the EO and other NARA guidance, management concurs. To the extent
this recommendation asks management to implement new procedures to ensure expanded labeling is
applied and enforced throughout the Commission, management does not concur as that is not a mandate
required by the EO or currently by NARA.




                                                   43

Auditor Response:

Our recommendation is for management to develop a plan to implement Executive Order 13556, which is
independent of the labeling recommendation in 7b. We acknowledge management’s concurrence to
develop a plan to comply with Executive Order 13556 and other NARA guidance and when fully
implemented, should satisfy the intent of the audit recommendation.

Management Response to 7d:

Management concurs: Management agrees to work with the Physical Security Officer and the Records
Officer to address the securing of storage areas and records management. As a part of this process,
management will look into the locking of suite doors after business hours as a potential security
safeguard.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 7e:

Management concurs: Management concurs with this recommendation and will work with the
Contracting Office to determine the best course of action for enforcing this requirement.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 7f:

Management concurs: Management concurs with this recommendation and will work with the
Contracting Officer to develop said policies and procedures.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 7g:

Management concurs: Management concurs with this recommendation and is already in the process of
developing division-specific training.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.




                                                 44

Finding 8: Lack of Detailed Procedures and Periodic Review

The FEC has twenty-eight (28) separate policies governing data security (58.x documents, e.g., Federal
Election Commission Personnel Security Policy 58-1.1, Federal Election Commission Security Training
and Awareness Policy 58-1.2). Supporting the data security policies are four (4) procedures, eighteen
(18) standards, and one (1) guideline. The FEC has two (2) policies governing privacy and data
protection supported by one rule of conduct and one plan to reduce the use and retention of personally
identifiable information.

Despite the volume of policies, there is a general lack of detailed procedures that describe how the
requirements in the security and privacy policies are to be implemented beyond the four existing
procedures: Access Control Procedures; OIT Procedures for Disabling User Accounts; Office of
Information Technology Incident Response Procedures; and Procedures for Managing Change Requests.
For instance, the Federal Election Commission Privacy Protection Policies and Procedures document
does not contain any procedures. Section III, “Consent.” states:

       “Unless authorized by law, or qualifying for an exemption under the Privacy Act, consent should
       be obtained from an individual before a record pertaining to that individual, contained in a
       system of records, is:

       Used for a purpose other [missing the word “than”] the purpose for which it was collected; or

       Disclosed to any person or to another agency.

       However, use and disclosure without consent is permitted under certain circumstances as
       delineated in subsection (b) of the Privacy Act, such as the exception for routine uses published in
       the System of Records Notice. FEC offices should consult with the FEC Privacy Officer on
       questions regarding disclosure or alternative uses without consent.”

The policy does not contain procedures that clearly describe how the requirements would be
accomplished. For example, the policy does not answer the following questions:

   •   Is there a standard form to request and document consent?
   •   Is written consent required or is electronic consent acceptable?
   •   Who is responsible for obtaining the consent?
   •   Are any identity verification procedures required?
   •   Where should the consent documents be filed?
   •   How long should the consent documents be maintained?

Another example is the FEC Media Management Security Policy 58.4-2, which states:

       “It is FEC policy that:

       Procedures will be defined and implemented to protect computer media such as magnetic tapes,
       magnetic and optical disks, memory chips, CD ROMs, and other storage devices, throughout
       their life cycles, taking into consideration applicable property management policies and
       procedures;

       Procedures will be defined and implemented to prevent access to electronic information and
       software from computers, disks and other equipment or media when they are disposed of or
       transferred outside FEC control. These procedures should aim at preventing electronic data that

                                                 45

        has been deleted or disposed of from being retrieved. Disposal measures should be cost-effective,
        taking into account information sensitivity; FEC Media Disposal Standards are relevant here.”

While there may be practices in place to address the above requirements, there are no documented
procedures.

Definitions of policies, procedures, guidelines and standards used by the Information Systems Auditing
and Control Association (ISACA), an independent, nonprofit, global association, that engages in the
development, adoption and use of globally accepted, industry-leading knowledge and practices for
information systems are:

        Policies are a document that records a high-level principle or course of action which has been
        decided upon. A policy’s intended purpose is to influence and guide both present and future
        decision making to be in line with the philosophy, objectives and strategic plans established by
        the enterprise’s management teams.

        Standards are a mandatory requirement, code of practice or specification approved by a
        recognized external standards organization, such as International Standards Organization (ISO).

        Procedures are a detailed description of the steps necessary to perform specific operations in
        conformance with applicable standards.

        Guidelines are a description of a particular way of accomplishing something that is less
        prescriptive than a procedure.

Based on the standard definitions and detailed review of FEC documents, additional procedures and
modification to existing supporting documents is required.

Further, the following documents do not have an adoption date or current version date.

    •	 Federal Election Commission Privacy Protection Policies and Procedures;
    •	 Federal Election Commission Guide to Protecting Sensitive Information;
    •	 Federal Election Commission Policy and Plan for Responding to Breaches of Personally 

       Identifiable Information; 

    •	 Federal Election Commission Privacy Rules of Conduct;
    •	 Access Control Procedures; and
    •	 the 18 IT Security standards.

There is no defined periodic review cycle, and updating as necessary, for the documents listed above.
Dating policies and procedures is a common practice. There is not a standard template used for all FEC
policy documents that includes dating.

FEC Directive 65, Designation of Chief Privacy Officer and Senior Agency Official for Privacy,
December 4, 2007, references OMB M-05-08 and states the Senior Agency Official is responsible for
“Reviewing and updating policy procedures.”

The International Organization for Standardization and International Electrotechnical Commission
(ISO/IEC) 27002 , “Information technology-Security techniques-Code of practice for information security
management”, is a globally accepted information security standard and is considered best practice. This
standard states:



                                                  46

        “Information security is achieved by implementing a suitable set of controls, including policies,
        processes, procedures, organizational structures and software and hardware functions. These
        controls need to be established, implemented, monitored, reviewed and improved, where
        necessary, to ensure that the specific security and business objectives of the organization are met.
        This should be done in conjunction with other business management processes.”

The FEC has not implemented a framework or assigned responsibility to specific staff for designing,
documenting, communicating and training staff on detailed procedures necessary to implement the
existing policies. Instead, since the number of the FEC staff is relatively small, there is reliance on quick
and close communication amongst staff to address any questions regarding policy implementation.

Without detailed procedures to support the documented policies, FEC staff may not be sure how to
comply with the policies, and management may not be able to hold staff accountable for full compliance.
As new employees assimilate into their positions at the FEC, they will not know for certain what the
expected compliance procedures are. Instead they will have to ask or observe others and may or may not
learn the appropriate procedures.

If privacy policies and supporting documents are not reviewed regularly and updated, they may not
address the current legal requirements and risks. Failure to date the agency policies and procedures may
result in employees not realizing they are referring to an outdated policy or authoritative document, and
can decrease compliance with current requirements. Further, the current condition diminishes the FEC’s
ability to successfully enforce disciplinary action if an employee unknowingly relies on an outdated
policy or procedure.

Recommendations

We recommend that the FEC:

        8a. 	   Should develop, implement and communicate detailed procedures to all employees for
                each security and privacy related policies. This may need to occur at the division or
                department level with the Privacy Team serving as subject matter experts. Detailed
                procedures will also be helpful for agency staff tasked with monitoring, enforcing and
                reporting on compliance with the requirements in the associated policies.

        8b.	    Should directly link detailed procedures to the source policies and house them in a
                central, easily accessible location, such as the FEC Intranet.

        8c. 	   Should follow a standard template for all policies and supporting documents that includes
                an adoption and last revision date.

        8d.	    Should review on a regular basis all of the privacy and data security policies, procedures,
                standards and guidelines on a defined timeframe (e.g., annually), and they should be
                dated, and updated as necessary and include a point of contact if employees have
                questions.

Management's General Response to Finding 8:

Prior to responding to specific recommendations, we had a few comments regarding some of the findings
in this section of the report. First, we note that IT security policies are reviewed on an annual basis, thus
it is not true that “[t]here is no defined periodic review cycle, and updating as necessary,” for those
policies. Second, we do not agree that the failure to place dates on policies would diminish the agency’s
ability to “successfully enforce” those policies if the employee has been provided with the new policy and

                                                   47

still relies on an outdated policy. Employees are held accountable to agency policies unless it is clear that
the policies have been revised or overturned.

Auditor Response:

We acknowledge that IT security policies are reviewed on an annual basis. However, there are other
documents that are important to the privacy and information protection program that do not appear to
have a defined review cycle. Our recommendation was intended to address the review cycle for the
following documents:

    •	 Federal Election Commission Privacy Protection Policies and Procedures;
    •	 Federal Election Commission Guide to Protecting Sensitive Information;
    •	 Federal Election Commission Policy and Plan for Responding to Breaches of Personally 

       Identifiable Information; 

    •	 Federal Election Commission Privacy Rules of Conduct;
    •	 Access Control Procedures; and
    •	 the 18 IT Security standards.

Management Response to 8a:

Management concurs in part: Management does not concur with this finding in that we do not believe
overarching agency-wide procedures should be detailed to the level specified by the auditors.
Nevertheless, we do agree that detailed procedures may be necessary at the division or departmental level.
The Privacy Team will encourage and work with FEC division heads in their development of office-
specific procedures when necessary.

Auditor Response:

Although FEC management does not concur with the finding, management has agreed to improve
procedures at the division level. We look forward to reviewing the details of the plan to coordinate with
FEC division heads in the corrective action plan.

Management Response to 8b:

Management concurs: At present, the agency’s IT security policies are housed on the FEC-Wide
network drive in the IT policies and standards folders. However, we agree that both privacy and IT
security procedures should be housed in a centralized and easily accessible location, and that the FEC
Intranet (“FECNet”) would be an invaluable communication tool for that purpose. The Privacy Team has
already commenced this process by working with OCIO to develop a Privacy FECNet page.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 8c:

Management concurs in part: Management concurs with the finding that privacy policies should
contain an adoption and last revision date, and will revise its policies to ensure such designations are
included. We will continue to evaluate whether confidential or sensitivity designations are appropriate
for the privacy policies and procedures. We do not agree that a standardized template for privacy policies
is always appropriate.
                                                   48

Auditor Response:

A standardized template provides consistent presentation of policy content and can make it easier for a
reader to quickly find the information of most interest. However, the substance of the policy is ultimately
more important than the format. The agency’s planned action is responsive to the audit issue identified
and when fully implemented, should satisfy the intent of the audit recommendation.

Management Response to 8d:

Management concurs in part: Management agrees that privacy and data security policies, procedures,
standards and guidelines should be reviewed periodically to determine if updates are necessary.
However, because most of these policies serve as overarching umbrella privacy policies for agency-wide
use, it is unlikely that frequent revisions are necessary. We therefore agree to institute a biennial review
of the privacy policies. We note that IT security policies are currently reviewed on an annual basis. We
concur with the auditors’ finding that policies, procedures, standards and guidelines should contain
effective dates and revision dates as necessary, and should include a point of contact if they do not
already (we note that many of the policies already list the Privacy Officers or the Information Systems
Security Officer as key points of contact).

Auditor Response:

We recognize management’s efforts to concur with our recommendation. However, we would still
encourage that they increase the frequency of this review to annually because of the ever changing nature
of privacy risks.

Finding 9: Logging

OMB M-06-16, Protection of Sensitive Agency Information, issued June 23, 2006 states:

        “In an effort to properly safeguard our information assets while using information technology, it
        is essential for all departments and agencies to know their baseline of activities. The National
        Institute of Standards and Technology (NIST) provided a checklist for protection of remote
        information. (See attachment) The intent of implementing the checklist is to compensate for the
        lack of physical security controls when information is removed from, or accessed from outside the
        agency location. In addition to using the NIST checklist, I am recommending all departments and
        agencies take the following actions:

        1.	 Encrypt all data on mobile computers/devices which carry agency data unless the data is
            determined to be non-sensitive, in writing, by your Deputy Secretary or an individual he/she
            may designate in writing;

        2.	 Allow remote access only with two-factor authentication where one of the factors is provided
            by a device separate from the computer gaining access;

        3.	 Use a “time-out” function for remote access and mobile devices requiring user re-
            authentication after 30 minutes inactivity; and

        4.	 Log all computer-readable data extracts from databases holding sensitive information and
            verify each extract including sensitive data has been erased within 90 days or its use is still
            required.”


                                                   49

The agency agreed to implement the first three of the four recommendations. In an August 23, 2006
memo to the Commission from the CIO and ISSO, in response to M-06-16, the logging recommendation
was not implemented given the opinion “that the cumulative effects of encrypting the entire hard local
drive, requiring a 30 minute time out for inactivity and employing a two-factor authentication scheme
reduces the Commission’s risk exposure to an acceptable level.”

Encrypting the entire local hard drive, requiring a 30 minute time out for inactivity and employing a two-
factor authentication scheme is not a substitute for logging access to and extracts from systems containing
sensitive data.

Logging of FEC systems activity is currently only performed at the network access level and does not
include specific systems (databases) containing PII. Therefore, the details of file access are nonexistent
and the following details are not recorded or monitored: 1) identity of individual/divisions accessing
specific files; 2) the date/time and actions that were taken on individual files, such as created, copied,
updated, or deleted.

FEC’s Auditing and Monitoring Policy, 58-3.3, also states:

        1.      “PURPOSE

        This policy is designed to:

        a.     Satisfy the purposes and policy goals of the Federal Election Commission (FEC)
        Information System Security Program Policy, Policy Number 58A.

        b.        Establish control over the process of monitoring and logging system and user activities.
        This policy is designed to address the requirement to monitor systems to detect potential threats
        to electronic information, and record selected system activities that will be stored with integrity,
        and reviewed by management on a regular basis to detect problems. The policy is enabled by
        facilities and procedures for the monitoring, logging and reviewing system and user actions and
        high-risk transactions, detecting unauthorized activities are, and for enabling systems’ and
        business processes’ integrity to be quickly restored following a security incident. This policy
        takes into consideration:

                    I.	   Authorization;
                   II.    High-risk transactions;
                  III.    Data integrity;
                  IV.     Risk assessments; and
                   V.     Security incidents.

    It is FEC policy that:

        •	 FEC information systems have capabilities to automatically monitor, log and review of
           selected user and system actions, events and transactions. Automated monitoring and audit
           logging facilities must record, at minimum, actions, events and high-risk transactions
           articulated in FEC Audit Event Standards;

        •	 Selected system and user actions, events and high-risk transactions to be automatically
           monitored and/or logged are identified and documented for each FEC computing resource.
           This list of auditable events is based upon the past experience of error misuse, criticality and
           interconnectivity of the system processes, events and information;


                                                    50

        •	 Periodic reviews are conducted to ensure monitoring results and audit logs are valid;

        •	 Audit logs are retained so as to preserve their value as legal evidence, and to help identify,
           prosecute, resolve and/or mitigate security incidents. A framework of controls exists to
           control physical and logical access to FEC logging facilities and storage media in a way that
           protects them from unauthorized access, use or modification;

        •	 Audit logs’ retention period is based upon FEC operational requirements, applicable federal
           guidance, laws and/or regulations;

        •	 All FEC information systems that have the capability to operate a real-time clock will have
           the clock set to an agreed upon standard (e.g. Universal Coordinated time or local standard
           time) so that audit logs are both accurate and comparable. Procedures should be developed
           to check for and correct significant variations from this standard.”

The FEC has not implemented detailed system logs due to concerns about system storage resources and
associated costs required to maintain and review such logs.

The lack of detailed system logs will result in a compromised ability to perform forensics should there be
a data breach. Our discussion with the FEC Information Systems Security Officer (ISSO) indicated that
there were no known system security or data breaches in 2010; however, without a logging and
monitoring system in place, it is not possible to know if there were any attempted or successful system
intrusions.

Recommendation

We recommend that the FEC:

        9. 	    Implement logging for all computer-readable data extracts from databases holding
                personally identifiable information (PII).

Further Information on System Logging

System logging is built into numerous applications. The feature can be enabled on a trial basis for some
systems containing PII to establish a baseline for electronic storage needs and evaluate actual
performance issues. The results will provide quantitative data upon which the Commission can make
informed decisions about logging for all systems that contain PII. Depending on the results and
individual division needs, logs can be rotated on a predetermined basis.

The Solutions Technology Systems, Inc. report issued in May 2009 contained a comprehensive inventory
of applications that contain PII. The report also identified the divisions that process PII and the FEC
ISSO can choose a relatively small division to pilot this project.

Management Response:

Management does not concur: Management continues to believe that the encryption, 30-minute time
out, and two-factor authentication controls currently in place for FEC mobile devices and computers are
sufficient to prevent and/or significantly reduce the agency’s risk exposure. As noted by the auditors, the
agency currently monitors and logs access to the agency’s network. We manage access to sensitive
information by properly managing access control, i.e. we only provide access to sensitive information to
those individuals who need access in order to complete their authorized duties. Therefore additional


                                                  51

logging of persons already authorized to access, copy, delete, and/or move PII would not be cost
effective.

Auditor Response:

We acknowledge that the controls management describes are appropriate. However, without logging,
there is no record of system user activity and the nature of system activity which is essential for a forensic
review in the event of a system intrusion or unauthorized activity. Effective logging not only captures the
activity of employees but also the activity of unauthorized individuals or entities if they penetrate the
FEC’s network.

Finding 10: Protections for Remote Access to PII

The FEC Policy 58-4.5, Virtual Private Network (VPN), does not specifically require that employees must
save work related data to FEC network drives instead of the local hard drive. FEC Directive 58
Electronic Records, Software and Computer Usage states:

        “As the principal component of FEC System Security Program, end users take on the burden of
        protecting the confidentiality, integrity and availability of information when you bypass FEC
        security guidelines by saving your work to media other than the FEC network. As in the case of
        paper records, each individual user is also responsible for the erasure and/or destruction of any
        sensitive information the user chooses to store outside of the FEC network.”

As written, the policy is clear but is not adequate in that it provides employees the flexibility to save work
locally as needed with the “burden of protecting the information.” The policy does not limit the practice
to specific working arrangements or emergency situations, such as remote audits or inability to access the
FEC networks.

This is a prior audit finding that management disagreed with, and instead chose to rely on email
reminders.

Users may save their work to local hard drives thus placing the information at greater risk of being
accessible by an unauthorized individual. Also, the practice of saving information locally does not enable
automatic back-up and recovery of information if a computer is lost, stolen or impaired. Failure to
explicitly state the requirement to save all data to FEC networks in a policy compromises the agency’s
ability to monitor and enforce employee protection of work related data.

Recommendations

We recommend that the FEC:

        10a. 	   Should change Policy 58-4.5, Virtual Private Network (VPN), and Directive 58,
                 Electronic Records, Software and Computer Usage, to state that work related data must
                 be saved to the network and not downloaded and saved on local devices. Exceptions to
                 the policy should be clearly documented and approved by management, and, where
                 possible, compensating controls put in place.

        10b.	    Should further re-enforce the key elements in Policy 58-4.5, Virtual Private Network
                 (VPN), and other security policies and also design and implement a formal
                 communications plan to re-enforce key privacy and security principles contained in the
                 policies and training. This communication plan should include scheduled periodic
                 reminders to employees and contractors on key principles that can be delivered through

                                                   52

                such means as emails, log-in banners, newsletter articles, posters or other existing
                communication vehicles currently used to communicate with employees. The most
                effective messaging is typically brief and focused on a single topic. For example, an
                email message such as: REMINDER: Save all your work on the network and do not
                download to your computer.

        10c.    Modify the Intranet to contain a page with Privacy and data protection policies,
                procedures and updates. This would ensure that all FEC employees are aware of the
                policies with regard to PII, and privacy and data protection.

Management Response to 10a:

Management concurs in part: While management concurs with this concept in general, we note that
some of the factual findings are inaccurate. The audit report assumes that employees are given a choice
as to whether to save information on the FEC network and that current policies reflect that choice.
However, the most current version of the Virtual Privacy Network (VPN) Policy 58-4.5 (adopted May 19,
2009 and revised in February 2010) requires that employees “[s]ave work-related data to the network to
ensure proper backup occurs.” Thus, our current policies already implement this recommendation.
Nevertheless, we concur with the use of the verb “must” in future revisions to the policy and will make
those changes in the Policy and in Directive 58 if necessary. It should further be noted that employees are
informed in privacy training that “[e]mployees and contractors must save work-related data to the FEC
network.” We would also agree that the VPN policy should include information regarding requesting
exceptions to the policy, namely that the policy will: 1) include a statement that exceptions will be made
on a case-by-case basis; 2) name the agency official authorized to grant an exception (e.g., Chief
Information Officer); and, if possible, 3) provide examples of the criteria used to grant an exception.

Auditor Response:

The quote from Policy 58-4.5 is: “All VPN users are encouraged to remember that: save work-related
data to the network to ensure proper backup occurs.” Our recommendation is that this wording be
stronger. The agency’s planned action is responsive to the audit issue identified and when fully
implemented, should satisfy the intent of the audit recommendation. We look forward to reviewing the
updated policy.

Management Response to 10b:

Management concurs: Management agrees to develop a communication plan that will include methods
of re-enforcing key privacy and security principles via the use of log-in banners, emails and/or other
vehicles (e.g., using FECNet as a communicating tool).

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation. We look forward to reviewing the communication
plan.

Management Response to 10c:

Management concurs: Management agrees to develop a Privacy page on FECNet and has already
begun this process.



                                                  53

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Finding 11: Vendor Due Diligence

The FEC privacy governance framework should be expanded to include not only PII that is collected,
processed, transmitted or stored by the FEC, but also PII that is provided to and/or stored by vendors.
Currently, there is no comprehensive list of all vendors that handle FEC PII and there is no formal process
in place to understand, document, and assess the controls in place at vendors, prior to, or after, providing
access to FEC PII. Instead, the agency primarily relies on protective language in the contractual
agreements with these vendors. While including confidentiality and non-disclosure language in contracts
with vendors helps to protect the FEC’s interests, it does not address or provide reasonable assurance that
the vendor can adequately protect FEC PII.

The FEC plans to conduct a review of a random sample of agency contracts every two years, as required
by Circular A-130 (1) section (m):

        “Review every two years a random sample of agency contracts that provide for the maintenance
        of a system of records on behalf of the agency to accomplish an agency function, in order to
        ensure that the wording of each contract makes the provisions of the Act binding on the
        contractor and his or her employees. (See 5 U.S.C. 552a(m)(1))”

As part of this review, the terms and conditions relating to privacy and data protection is also performed.
As planned, the biennial review is performed based on a random sample and is not focused on the
contracts of vendors who have access to FEC PII. Further, the biennial contract review conducted to
satisfy the requirements of OMB Circular A-130 has not been completed on time due to resource
constraints in the Office of General Counsel (OGC). The last biennial review of a sample of contracts
was completed October 7, 2008.

The purpose of the FEC Third Party Services Policy, 58-1.5. is to:

    a.	 “Satisfy the purposes and policy goals of the Federal Election Commission (FEC) Information
        System Security Program Policy, Policy Number 58A;

    b.	 Establish control over the process of managing to risks associated with use of third parties by the
        FEC. This policy addresses the requirement to prevent non-FEC users who have been authorized
        access to FEC electronic information and computing assets from compromising the FEC systems
        security environment. This policy is enabled by control measures to review and monitor existing
        contracts and procedures for their effectiveness and compliance with FEC policy, and takes into
        consideration:

                i. Third-party service agreements;
                ii. Non-disclosure agreements;
                iii. Legal and regulatory requirements; and
                iv. Service delivery monitoring.”

The FEC Privacy Protection Policies and Procedures states:

        “Co-Chief Privacy Officers/Co-Senior Agency Officials for Privacy are responsible for: ensuring
        compliance with applicable privacy and data protection laws, regulation and policies.”

                                                  54

A formal risk assessment process inclusive of assessing the risks around FEC PII that has been entrusted
to vendors has not been adopted. Resource constraints limit the ability to complete vendor reviews
consistently and in a timely manner.

The absence of a comprehensive list of all vendors that handle FEC PII results in the inability to fully
assess the privacy related risks these vendors pose to the agency. It may also result in the biennial
contract review process being based on a sample of contracts that is selected from an incomplete
population of all vendors that handle FEC PII and could result in a false conclusion from the review.

Failure to review the security and privacy controls at vendors prior to sharing FEC PII places the agency
at risk for litigation if the information is lost or compromised. If a breach of FEC data held by its vendors
occurred, it could result in:

    •   damage to the individuals whose personal information was disclosed;
    •   adverse media coverage and embarrassment for the FEC and potential Congressional inquiry;
    •   financial consequences to address an unauthorized disclosure of information; and
    •   potential litigation.

Recommendations

We recommend that the FEC:

        11a. 	   Should develop and maintain a comprehensive list of all vendors that handle PII.

        Further Information

                 This information could be gathered from each of the Contracting Officer’s Technical
                 Representative (COTRs) and the STSI inventory results, after review and update, to get
                 an initial comprehensive list. A form that could be used by COTRs for all new contracts
                 should be developed and implemented to document if the vendor will have access to FEC
                 PII, with a copy of the form provided to the co-Chief Privacy Officers before the contract
                 is signed, so that a risk assessment of the vendor could be performed.

        11b. 	   Should develop a policy and supporting procedures to assess and approve vendors with
                 access to FEC PII to reasonably ensure that the vendor has adequate controls in place to
                 protect the information before any PII is provided to the vendor.

        Further Information

                 The policy should include a risk rating system whereby service providers are ranked (e.g.,
                 high, medium, low) based on the nature and volume of FEC PII that they will be provided
                 access. The higher the risk rating, the more comprehensive the level of review that
                 should be exercised by the FEC. Approaches to gather information from the vendors and
                 perform a review of the information security and privacy controls can range from the
                 vendor completing a security and privacy questionnaire, an on-site review of the vendor’s
                 controls by FEC staff or contractors, or relying on a review of the vendor’s controls as
                 performed by a third party (e.g., SAS 70 report). Any reliance on SAS 70 reports
                 provided by the vendor should include a step to ensure that the scope of that work was
                 inclusive and sufficient to cover the systems and processes used to collect, process,
                 transmit or store FEC PII. The “user control considerations” section of any SAS 70


                                                   55

                report should also be reviewed by the FEC to ensure that the agency has these controls in
                place as they are specifically excluded from the vendor’s responsibility in the report.

        11c.    Should formally document the process used to review the FEC’s vendors and the results
                should be retained to evidence the review procedures performed. In addition, there
                should be documented management approval from the department head that is the source
                of the information to be shared with the vendor and either of the co-Chief Privacy
                Officers before the vendor is provided access to FEC PII. There may be more than one
                department head that should review and approve a specific vendor if the PII affected
                pertains to more than one department.

Management Response to 11a:

Management concurs: Management agrees it will work with the Contracting Officer to develop a
process to maintain a comprehensive list of PII vendors. However, we note that OMB Circular A-130
only requires that a random sample of “Section (m)” contracts be reviewed, and that having a
comprehensive list will not necessarily “result in a false conclusion from the review.”

Auditor Response:

While only a sample of contracts needs to be reviewed, selection of the sample should be from a complete
and accurate list. The agency’s planned action is responsive to the audit issue identified and when fully
implemented, should satisfy the intent of the audit recommendation.

Management Response to 11b:

Management concurs in part: We agree that policies and procedures to assess and approve vendor
controls for FEC PII are important, and have already done so by incorporating privacy policies for
vendors in the FEC Privacy Protection and Policies and Procedures, FEC Third Party Services Policy 58-
1.5, Privacy Rules of Conduct, and the Nondisclosure Agreement for Contractors. We will work with the
agency’s Contracting Officer and Chief Financial Officer to develop policies and supporting procedures
that will require prospective contractors to provide sufficient evidence of internal controls that will
safeguard the agency’s sensitive information or PII that the contractor has access to. We do not agree that
a risk rating system is necessary, and thus decline to implement this part of the recommendation at this
time, but will strongly consider it.

Auditor Response:

The agency’s planned action is responsive to most of the audit issue identified and when fully
implemented, should satisfy the basic intent of the audit recommendation. We look forward to reviewing
the details regarding consideration of a risk rating as part of the vendor review process in the corrective
action plan.

Management Response to 11c:

Management concurs in part: We agree that the process for reviewing the FEC’s vendors for privacy
controls should be developed and documented, and will work with the agency’s Contracting Officer to
accomplish this purpose. Moreover, we agree that there should be some sort of approval before a vendor
is provided access to FEC PII; however, we do not believe the division head may be the appropriate
person. Instead, we believe that approval by a CPO or their designee would be sufficient. We will
consider various options for ensuring that an approval process is implemented, including but not limited


                                                  56

to revising the Nondisclosure Agreement for Contractors to contain an approval statement and a signature
block for the approving official.

Auditor Response:

We recognize management’s efforts to concur with our recommendation. However, we still believe
division head involvement in the vendor approval process is appropriate because they have primary
fiduciary responsibility for the information in their respective division. We look forward to reviewing the
details of the planned actions in the corrective action plan.

Finding 12: System of Records Notice (SORN) Updates

Controls are not adequate to ensure the FEC Systems of Records (SOR) is updated and published in
accordance with the Privacy Act of 1974 and OMB Circular A-130. Since the prior audit report was
released on December 7, 2007, the FEC has taken the following steps toward governance and to ensure
compliance with OMB Circular A-130, appendix I, and the Privacy Act:
     •	 the FEC published an updated System of Record Notice (SORN) in the Federal Register on
        January 2, 2008;
     •	 Office of General Counsel (OGC) developed SORNs Review Guidelines February 4, 2009 that
        detailed the review period between January and June 2009;
     •	 the Privacy Team provided training to FEC managers on the Privacy Act System of Records
        Notice Review on March 26, 2009;
     •	 the Privacy Team required system managers, using the training provided, to review existing
        SORs with the goal to amend or revise them for new systems or changes to existing systems, as
        well as deleting obsolete systems. The deadline established for review, updates and reporting
        from systems managers was April 20, 2009; and
     •	 the FEC contracted with Solution Technology Systems, Inc. (STSI) to conduct a comprehensive
        analysis and inventory of PII documents and how they are used throughout the Commission. The
        inventory and a report of recommendations were provided by the contractor on May 20, 2009.
STSI also provided a Procedures for Conducting the Circular A-130 Systems of Records Notices Review
general guidance document for conducting the agency’s biennial SORNs review. The document provides
an eight step sequential process for conducting the biennial review but does not include a timetable for
performing the review or monitoring and reporting whether the review was completed timely. During the
2009 SORN review, and consistent with prior biennial review efforts, the agency reviewed its existing
SORs, received feedback from system managers11, analyzed the information received, and prepared a
report on revisions necessary to the published SORN. The agency, however, failed to publish an updated
SORN. Although the training for system managers and requests to provide feedback on the need to revise
and publish new SOR was completed in March and April 2009, the Privacy Act System of Records Notice
Recommendations memorandum was issued by Privacy Team members on August 31, 2010, well after
the planned review period of January to June 2009, and eight months after the January 2010 biennial
update deadline had passed.

The Privacy Act System of Records Notice Recommendations identified several systems requiring new
SORNs: Skillport training database; FEC Systems Access (FSA) database; FORCES Commenter
Systems; and Grievance and Arbitration Files. It also identified major and minor revisions required to
existing SORs: HSPD-12; Payroll (to reflect WebTA); Garnishments, Grievance and Arbitration files;

11
  The FEC OIG provided updates to SOR 12, Inspector General Investigative Files, to the Privacy Team on April 2,
2009.
                                                    57

and OIG Investigation files. Skillport has been in use by the FEC since November 2006 and WebTA time
and attendance system was implemented in November 2008. The FSA system was implemented in
December, 2009. Due to the delay in documenting and publishing the SORNs, the FEC is not compliant
with OMB A-130, and its own SORN Review Guidelines, which states:

         “Our last SORNs were published in January 2008 – any “major alterations” to the SORNs must
         be reported to Congress and OMB within 40 days after the operation of the new SOR12. Minor
         changes to a SOR (e.g., system manager name changes) can be grouped into one annual
         comprehensive publication on the Federal Register without any report to Congress or OMB. Cir.
         A-130(3)(a)(8) .”

The process to ensure that the FEC’s SOR is updated and published in accordance with the Privacy Act of
1974 and the OMB Circular A-130, Appendix I, is not fully documented or performed to ensure
compliance with the Privacy Act and OMB standards.

The Federal Election Commission Privacy Protection Policies and Procedures states:

         “FEC Privacy Officer is responsible for: reviewing (every two years) the FEC System of Records
         Notices for accuracy and ensuring amended notices are published in the Federal Register. The
         general public shall be notified of the FEC's systems of records through notice in the Federal
         Register, in compliance with the Privacy Act. The notice shall include, among other things, the
         name and location of the system, the purpose of the system, the categories of records maintained
         in the system and the routine uses of the records. If a routine use needs to be changed or added,
         modifications will be published in the Federal Register 30 days prior to those changes going into
         effect, and will allow for interested persons to submit comments.”

Consolidated Appropriations Act of 2005, Section 522 (a) (3) states:

         “Each agency shall have a Chief Privacy Officer (CPO) to assume primary responsibility for
         privacy and data protection policy, including assuring that personal information contained in
         Privacy Act systems of records is handled in full compliance with fair information practices as
         defined in the Privacy Act of 1974.”

OMB Circular A-130, Appendix I, Federal Agency Responsibilities for Maintaining Records about
Individuals, states:

         Section 5 Publication Requirements: ”The Privacy Act requires agencies to publish notices or
         rules in the Federal Register in the following circumstances: when adopting a new or altered
         system of records, when adopting a routine use, when adopting an exemption for a system of
         records, or when proposing to carry out a new or altered matching program.”
12
   OMB defines “major alterations” as: (a) A significant increase in the number, type, or category of individuals
about whom records are maintained. For example, a system covering physicians that has been expanded to include
other types of health care providers, e.g., nurses, technicians, etc., would require a report. Increases attributable to
normal growth should not be reported; (b) A change that expands the types or categories of information maintained.
For example, a benefit system which originally included only earned income information that has been expanded to
include unearned income information; (c) A change that alters the purpose for which the information is used; (d) A
change to equipment configuration (either hardware or software) that creates substantially greater access to the
records in the system of records. For example, locating interactive terminals at regional offices for accessing a
system formerly accessible only at the headquarters would require a report; (e) The addition of an exemption
pursuant to Section (j) or (k) of the Act. Note that, in examining a rulemaking for a Privacy Act exemption as part of
a report of a new or altered system of records, OMB will also review the rule under applicable regulatory review
procedures and agencies need not make a separate submission for that purpose; (f) The addition of a routine use
pursuant to 5 U.S.C. 552a(b)(3). See OMB Cir. A-130, App. I.
                                                        58

        Section 5.a (2) (a) System Notice: “The system of records notice must appear in the Federal
        Register before the agency begins to operate the system, e.g., collect and use the information”.

Privacy Act of 1974, Section § 552a (e) (4), states:

        “Publish in the Federal Register upon establishment or revision a notice of the existence and
        character of the system of records.”

During discussion with Privacy Team members responsible for performing the biennial review and
publishing the revised SORN, team members indicated that although required changes to the SORN were
known, documenting SORs for new systems and amending existing systems was a large task that would
take a great deal of time. Members of the FEC Privacy Team stated resource constraints and other
priorities as the reason timely SORNs are not published. The Commissioners may not be aware that the
agency is not compliant with Federal regulations with respect to SORN publication.

For the period reviewed, the Commission was not in full compliance with the Privacy Act of 1974 and
OMB Circular A-130, Appendix I. The public was not made aware of all sensitive information being
retained by the Commission. In addition, the public is not informed of the FEC systems that contain PII
and given the opportunity to request access and/or changes to their records on a timely basis.

Recommendations

We recommend the FEC Privacy Officer:
12a. 	 Develop a standardized template to allow system managers to accurately document SORs
       independently of the Privacy Team.
12b.	 Enhance existing guidelines and procedures to include timelines and deadlines that promote
      regular review and timely updates to SORs.
12c. 	 Work with ITD management to incorporate SORs assessment processes into systems under
       development and IT lifecycle management processes.
12d.	 Work with the Physical Security Officer, the FEC Records Officer, and FEC management to
      incorporate SORs assessment processes into electronic and paper records management processes.
12e. 	 Develop and implement policies and procedures that define monitoring and reporting processes to
       ensure SORs are updated and amendments published in accordance with Federal regulations by:
        •	      providing regular training to FEC managers and SOR system owners/managers;
        •	      establish deadlines, based on the legal requirements of OMB A-130, for documenting the
                new SORs, revisions to existing SORs, and publish the updated SORN;
        •	      providing legal assessment of potential changes in SORs and quality assuring the SORs
                produced by system owners/managers;
        •	      including performance standards in employee performance plans that are linked to
                successful compliance with Federal regulations; and
        •	      requiring regular reporting of compliance with the timelines to the Commission.

Management Response to 12a:

Management concurs in part: Management believes that devising a template that can be used to allow
system managers to report systems of records is a good idea, and will strongly consider it. However, we
                                                   59

foresee some issues in implementing such a process, namely getting the necessary support for the idea
from managers; providing adequate training to system managers on privacy issues; and establishing
accountability to ensure that managers complete the template. For that reason, we cannot commit to
implementing this recommendation but will strongly consider it.

Auditor Response

At this time management has not committed to implementing this recommendation; however, we
look forward to reviewing the details of management’s planned approach to addressing this
recommendation in the corrective action plan.

Management Response to 12b:

Management concurs: We agree to update the SORNs Review Guidelines and the Procedures for
Conducting the Circular A-130 System of Records Notices Review to include internal benchmarks and
goals for biennial reviews and updates of SORNs and SORs.

Auditor Response

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 12c:

Management concurs: There are times when a new IT system is developed for a particular purpose
that is not already covered by a SORN. For example, a commenter rulemaking system is being developed
with the purpose of collecting certain personal information from commenters to Commission proposed
rulemakings, and the Commission’s storage of that information, and the way that that information is
organized in the system (i.e. by the commenter’s name), may make it a system of records. Under these
circumstances, where a new IT system is being developed that would not be covered by existing SORNs,
we agree that a SOR assessment should be done and privacy considerations taken into account.

On the contrary, where IT systems are developed in such a way that they are not system of records (e.g.,
they store PII but are not organized by a personal identifier), or the information that they hold may
already be covered by an existing SORN (e.g., a new system for storing FOIA requests), a SOR
assessment is not necessary.

Auditor Response

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

Management Response to 12d:

Management concurs: We agree to work with the Administrative Services and the Commission
Secretary’s Office to ensure that SORs are considered during records management and physical security
operations.

Auditor Response

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.

                                                 60

Management Response to 12e:

Management concurs in part: We agree that regular system manager training should take place and are
in the process of creating such training. Some system manager training was previously conducted in 2009
in connection with the SORNs review. The deadlines for SORNs review and publication are already
prescribed by OMB Circular A-130 and therefore do not need to be established by the agency. However,
we will agree to create internal benchmarks or goals to improve our timeliness in this area, consistent with
the Circular A-130 deadlines, and subject to staff resources. As evidenced by the August 31, 2010
SORNs Review Memorandum, we agree to continue providing legal assessments of the potential changes
in SORs.

We do not concur with the finding that performance standards will need to be revised to include
compliance with SORNs deadlines. As mentioned in response to Finding 1b, the CIO and AGC-GLA are
explicitly responsible for privacy duties under Directive 65. They, in turn, hold the other Privacy Team
members accountable for their privacy responsibilities. Privacy duties are already an inherent part of the
team members’ performance evaluations.

Finally, Commissioners are annually notified of the agency’s privacy progress in several ways, for
example: through submission of the 522 Privacy Act Report to Congress to the Commission; and through
submission of the FISMA/Privacy Management Report to the Commission’s Chair. Moreover, the
Commissioners at any time may receive progress updates by the Chief Privacy Officers (CPOs).

Auditor’s Response:

We recognize management’s efforts to concur with our recommendation. However, we still recommend
that compliance with SORN deadlines be explicitly added to performance plans as stated in our auditor
response for recommendation 1b.

Finding 13: Training Workstations

While completing the required training as part of the contractor on-boarding process on November 2,
2010, we noted that generic user IDs and passwords were taped to the top of each training station with NT
login and Lotus Notes generic login credentials. We noted that workstations had access to a network
drive that contained numerous confidential documents, such as: an employee position classification and
assessment document; a compilation of informal guidance provided by the Public Financing Audit Advice
team in response to diverse legal questions from other Commission Divisions; a large deposition from a
matter under review; and other such confidential documents. We also noted during the afterhours
walkthroughs that the door to the training room was not locked, thus anyone in the building could have
potentially accessed the network files.

The Federal Election Commission Privacy Protection Policies and Procedures states:

        “Systems managers are responsible for overseeing the implementation of administrative,
        technical, and physical safeguards for the system(s) they manage in order to prevent
        unauthorized disclosure of personal information.

        The FEC shall provide security protection for all records that contain personal information
        maintained in FEC’s systems to ensure the accuracy, integrity and confidentiality of the records.
        The FEC’s security protections for systems that store personal information shall include
        appropriate administrative, technical and physical safeguards such as:


                                                  61

        A. Physical security of both hard copy and electronic data;
        B. Personnel security for employee and contractor access to data;
        C. Network security for data in transit; and
        D. Secure and timely destruction of records.

        The security protection afforded each system shall be commensurate with the risk level and
        magnitude of harm the FEC and/or the record subject would face in the event of a security
        breach.”

The generic user IDs and passwords are posted on the workstations to facilitate employee and contractor
training. The FEC training instructor was not aware that non-training related materials were accessible on
the training workstations. Trainees could access FEC confidential information before completing the
privacy and data security training. Employees, contractors or other individuals with physical access to the
building could obtain sensitive information by using the generic user IDs and passwords.

Recommendation

We recommend that the FEC:

        13.     Restrict the training workstations to only be able to access training materials.

Management Response:

Management concurs: The Commission takes serious its responsibility to properly secure sensitive
information and will immediately take action to restrict training workstations and student accounts to only
training materials.

Auditor Response:

The agency’s planned action is responsive to the audit issue identified and when fully implemented,
should satisfy the intent of the audit recommendation.




                                                   62

                                      ATTACHMENT 1 

                            COVER MEMO TO MANAGEMENT RESPONSES


       Cover Memo to Management Responses to the Cherry Bekaert & Holland LLP
              2010 Follow-up Audit of Privacy and Data Protection Report


                                                                  March 16, 2011

MEMORANDUM

TO:     	       Lynne McFarland
                Inspector General

                Jonathan Hatfield        

                Deputy Inspector General           


FROM:	          Alec Palmer
                Acting Staff Director
                Chief Information Officer
                Co-Chief Privacy Officer

                Lawrence L. Calvert        

                Associate General Counsel for General Law and Advice

                Co-Chief Privacy Officer       


SUBJECT:	       Management Responses to the 2010 Follow-Up of the 2007 Performance Audit of
                Privacy and Data Protection Report

We appreciate the opportunity to respond to the 2010 Follow-Up of the 2007 Performance Audit of
Privacy and Data Protection Report, conducted pursuant to section 522 of the Consolidated
Appropriations Act, 2005. We consider privacy to be a matter of great importance and have undertaken
significant efforts to ensure compliance.

The FEC has always taken very seriously the need to protect the security and privacy of information in its
possession. We are constantly aware that we possess sensitive information about individuals’ involvement
in activities that lie at the heart of the First Amendment. Our statute commands us, for example, not to
make public information concerning ongoing enforcement matters, and our record of complying with this
mandate over the past three decades is excellent.

Since 2007, the agency has gone through great lengths to improve its privacy program. In 2008, the
agency published its first updated systems of records notice (SORN) in thirteen years, and issued multiple
privacy policies and procedures based on the 2007 audit findings. Since 2008, the agency has completed
several OMB Circular A-130 mandated reviews, including: two Section (m) contract reviews, a
comprehensive SORNs review, and a privacy training review. Additionally, since 2008, the agency has
conducted annual privacy and security awareness training for both contractors and employees. In 2010
that training was revised to incorporate test questions aimed at ensuring employees understood their
privacy duties. The agency is also in the midst of developing office-specific privacy training. In 2009, the
agency developed a comprehensive inventory of its Personally Identifiable Information (PII), and as a
part of that project created draft procedures for updating the inventory. In 2010, the agency completed
Phase 1 of its plan to eliminate unnecessary social security number (SSN) use, and created a report of
recommendations for the Chief Privacy Officers to consider. Additionally, the agency has conducted


                                                  63

reviews of its SSN use and is in the midst of completing its report on the PII Review findings. Finally,
the agency has annually published its Privacy Management Report to OMB and its Privacy Act Report to
Congress, has updated its website to include Privacy Act complaint and contact information, and is
developing a privacy intranet page. We believe that these accomplishments show the Commission’s
commitment to privacy and our desire to improve our data protection practices.

It is also because of these accomplishments that we must respectfully disagree with the auditors’
characterizations of management’s response to the 2007 performance audit findings. The 2010 findings
summary chart characterizes most of the recommendations as “repeat finding[s]” from the 2007
performance audit. This characterization is also found in the executive summary, where it states that
“[s]ixteen (16) of nineteen (19) previous recommendations are still open….” These are not accurate
characterizations. The majority of the findings from the 2007 report were in fact addressed and closed;
the findings in the 2010 report are, as one might expect from a follow-up audit, follow-up findings which
appear to be aimed at addressing actions that need to be taken to maintain or improve upon the actions
taken in response to the 2007 audit. We disagree with the characterization of these findings as "repeat
findings" to the extent that label is intended to imply that the 2007 report findings were ignored or never
addressed. None of the 2007 findings were ignored, and all but the two with which management
disagreed at that time were addressed. For example, the 2007 report found that "a comprehensive
inventory of personally identifiable information has not been documented." As a result of this finding, in
2009 the agency created a documented comprehensive inventory of its PII. The current audit finds that "a
current PII inventory is not maintained." While we acknowledge below the need to maintain and expand
on our efforts in this area, we reject any implication that the previous finding was not acted on.

Privacy and data protection is a work always in progress. We always welcome recommendations for
improvement in our program, and indeed we believe that under the standards of this audit for "repeat" or
"open" findings there will as a result be findings in future audits that always remain "open." We simply
wish to make it clear that, except for the findings from 2007 on which management disagreed with the
findings and recommendations, we acted on all of those findings.

We also disagree with the characterization in the Executive Summary that the other duties of the co-CPOs
and the other members of the privacy team leads to the spending of "minimal" time on privacy duties.
None of the accomplishments described above could have occurred as the result of a "minimal"
investment of time. We do agree that at any given moment, privacy related functions may have a greater
or lesser amount of resources devoted to them depending on their priority relative to other demands on the
agency.

We recognize that in the Internet age, special attention has to be devoted to specific concerns related to
the privacy of information about individuals – both for the First Amendment-related reasons with which
the Commission has always been concerned, and because of the potential for problems such as identity
theft. We believe we have accomplished a good deal with our Privacy Program, given its relative youth
and the budgetary and human resource limitations that we face as a small agency of fewer than 400
employees.




                                                  64

                                                              ATTACHMENT 2




                                                                                         

                                      Status of 2006 and 2007 Privacy Findings and Recommendations

                                                PRIVACY AND DATA PROTECTION FOLLOW-UP AUDIT


OIG 2006 Inspection Report on Personally Identifiable Information
Finding             Recommendation                        Auditor verified Status December                2010 Follow-up Audit Status and Link to Report
                                                          2007                                            Findings
Confirm             Perform a risk assessment to          Open
identification of   examine the threats and
personally          vulnerabilities associated with       Management will perform risk assessments
identifiable        remote access to Federal Election     for major applications and the general
information         Commission (Commission)               support system (GSS) in the near future. An
protection needs    resources and physical removal of     examination of threats and vulnerabilities      Open (Modified repeat finding)
                    PII.                                  associated with remote access to FEC            Refer to Finding 5. Current Risk Assessments of Systems
                                                          resources and physical removal of PII will      Containing PII Are Not Performed on page 26.
                                                          be included in the GSS risk assessment.


                                                          Completed in 2009

                    Implement technical and/or policy     Open
                    controls to prevent access to the
                    Commission's resources for non-       Management is in the process of
                    encrypted laptops either locally or   implementing a Cisco Network Access
                    remotely.                             Control Device that will deny or restrict
                                                          access to the FEC’s network for devices not
                                                          in compliance with the FEC’s policies and
                                                                                                          Open (Repeat finding)
                                                          minimum settings. This device will not,
                                                                                                          Refer to Finding 6. Mobile Computing Policy, Device
                                                          however, be implemented until Calendar
                                                                                                          Encryption and Controls on page 28.
                                                          Year 2008.

                                                          The NAC has not been implemented,
                                                          however we have implemented policies and
                                                          procedures to prevent access from non-
                                                          encrypted laptops either locally or remotely.




                                                                           65

OIG 2006 Inspection Report on Personally Identifiable Information
Finding                 Recommendation                        Auditor verified Status December                 2010 Follow-up Audit Status and Link to Report
                                                              2007                                             Findings
Verify adequacy of      Update the Mobile Computing           Open
organizational policy   Security Policy to more accurately
                        reflect which systems will be         Management did not change the Mobile
                        encrypted and which ones will be      Computing Security Policy to clarify which
                        password protected in order to        systems will be password protected and
                        remove any ambiguities in the         which will be encrypted. The policy states
                        policy. Management should             that “all mobile computing devices including
                                                                                                               Open (Repeat finding)
                        incorporate explicit rules for        Blackberries and Palm Pilots must be
                                                                                                               Refer to Finding 6. Mobile Computing Policy, Device
                        determining if remote access is       encrypted and/or password protected.” The
                                                                                                               Encryption and Controls on page 28.
                        allowed, user training and            Commission stated that laptops must be
                        accountability measures in place to   encrypted and password protected while
                        ensure that remote use of PII does    other devices, such as Blackberries and Palm
                        not result in bypassing management    Pilots, only need to be password protected.
                        controls.                             This is still, however, unclear in the policy.

                                                              Laptop and Blackberry data transmissions
                                                              are encrypted at the server level.
Implement               Update Commission mobile              Open
protections for         computing security policies to
remote access to        include procedures for                Management did not change the Mobile
personally              downloading and remote storage of     Computing Security Policy to include
                                                                                                               Open (Repeat finding)
identifiable            data.                                 procedures for downloading and remote
                                                                                                               Refer to Finding 10. Protections for Remote Access to
information                                                   storage of data. Users are periodically
                                                                                                               PII on page 52.
                                                              reminded to save files to the network
                                                              through emails and newsletters. The policy
                                                              has not, however, changed.




                                                                               66

OIG 2006 Inspection Report on Personally Identifiable Information
Finding               Recommendation                          Auditor verified Status December                  2010 Follow-up Audit Status and Link to Report
                                                              2007                                              Findings
                      Implemented a timeout feature for       Open
                      laptops/desktops which will
                      timeout after 30 minutes of             We reviewed the Blackberry server settings
                      inactivity. [No timeout feature is in   and noted that the timeout is set at 60
                      place for other peripheral devices.]    minutes instead of 30 minutes. In addition,
                                                              users have the ability to change the timeout      Closed
                                                              setting.

                                                              The 30 minute timeout is set at the server
                                                              level, so even if the user changed it, it would
                                                              change back.
Additional Agency     Log all computer-readable data          Open
Requirements          extracts, as comprehensive
                      implementation of encryption on all     Management considers logging all computer         Open (Repeat finding)
                      portable computers will ensure PII      readable data extracts as neither feasible nor    Refer to Finding 9. Logging on page 49.
                      is adequately protected                 reasonable and therefore does not intend to
                                                              complete this recommendation.


OIG 07-02 Performance Audit of Privacy and Data Protection
Finding               Recommendation                          Management Status May 2010                        2010 Follow-up Audit Testing NFR
1. A Comprehensive    1a. Conduct a comprehensive             Complete April 2009
Inventory of              review to identify and
Personally                document all PII collected,                                                           Closed. An inventory of FEC PII was prepared by contractor
Identifiable              processed, and stored within                                                          STSI (dated May 2009).
Information Has Not       the FEC.
Been Documented                                                                                                 Modified repeat finding concept of inventory prepared but
                                                                                                                not maintained is included Finding 4. A Current PII
                                                                                                                Inventory is not Maintained on page 22.




                                                                                67

OIG 07-02 Performance Audit of Privacy and Data Protection
Finding                Recommendation                        Management Status May 2010                     2010 Follow-up Audit Testing NFR
                       1b. Develop, document, and            The FEC conducted a PII review in 2009 and
                           implement procedures for          procedures for periodically updating PII are   Open (Repeat finding)
                           periodically updating the         in development                                 Refer Finding 4. A Current PII Inventory is not
                           FEC’s inventory of PII.                                                          Maintained on page 22.

2. Safeguards Over     2a. Develop and implement a           Completed April 2009
Sensitive Personally       comprehensive data
Identifiable               management framework to
                                                                                                            Open (Repeat finding)
Information Need           ensure that sensitive PII in
                                                                                                            Refer to Finding 7. Safeguards Over Sensitive Agency
Improvement                both hard copy and electronic
                                                                                                            Information and PII Need Improvement on page 37 and
                           format is adequately identified
                                                                                                            Finding 12. System of Records Notice (SORN) Updates on
                           (including its location within
                                                                                                            page 57.
                           the FEC), secured, and
                           properly disposed of when no
                           longer needed.

                       2b. Develop a policy and              Completed April 2009
                           procedures to ensure that the
                           FEC’s PII maintained or                                                          Open (Repeat finding)
                           processed by third parties is                                                    Refer to Finding 11. Vendor Due Diligence on page 54.
                           adequately protected from
                           unauthorized use or disclosure.

3. Privacy Policies    3. Finalize, approve, and fully       Completed
and Procedures Have       implement privacy policies,
                                                                                                            Open (Modified repeat finding)
Not Been Approved         procedures, and directives in
                                                                                                            Refer to Finding 8. Lack of Detailed Procedures and
and Implemented           accordance with Federal laws
                                                                                                            Periodic Review on page 45.
                          and regulations.

4. Privacy Roles and   4a. Consider identifying one          Management disagrees with Finding 4 and
Responsibilities Are       individual (position), such as    does not feel bound to comply with these       Open (Repeat finding)
Not Adequately             the FEC Staff Director, as        Recommendations. In our response to the        Refer to Finding 1. Privacy Roles and Accountability
Documented                 Chief Privacy Officer.            Finding, we agreed that "To the extent this    on page 14.
                                                             Finding is about the specificity of the




                                                                              68

OIG 07-02 Performance Audit of Privacy and Data Protection
Finding               Recommendation                         Management Status May 2010                      2010 Follow-up Audit Testing NFR
                      4b. Assign privacy roles and           assignment of other responsibilities in the
                          responsibilities to specific       draft [Privacy] document [or document(s)],
                          positions. In the event that the   we will, of course, carefully consider the
                          FEC continues with shared          recommendations."
                          CPO and SAOP
                          responsibilities, clearly
                          delineate roles and
                                                                                                             Open (Repeat finding)
                          responsibilities among
                                                                                                             Refer Finding 1. Privacy Roles and Accountability
                          individuals sharing these
                                                                                                             on page 14.
                          positions.

                      4c. Identify, document, and assign
                          roles and responsibilities for
                          monitoring compliance with
                          Federal and FEC privacy
                          requirements.

5. Privacy Training   5. We recommend that the Chief         Completed
Has Not Been             Privacy Officer develop and
Provided to FEC          implement privacy training for
                                                                                                             Closed.
Employees and            all FEC employees and
                                                                                                             The concept on training effectiveness is included in the
Contractors              contractors to ensure that
                                                                                                             Finding 7. Safeguards Over Sensitive Agency Information
                         personnel understand their
                                                                                                             and PII Need Improvement on page 37.
                         privacy roles and
                         responsibilities.

6. Privacy Impact     6a. Identify and implement a           Management disagrees with Finding 6 and
Assessments Have          governance framework to            does not feel bound to comply with these
                                                                                                             Open (Repeat finding)
Not Been Conducted        ensure that controls within the    Recommendations. In our response to the
                                                                                                             Refer Finding 2. Privacy Impact Assessments Have
                          FEC are appropriately              Finding, we agreed to "carefully consider the
                                                                                                             Not Been Conducted on page 17.
                          identified, documented, and        recommendation regarding PIAs," and with
                          implemented.                       regard to the governance framework, stated
                                                             that "management will need to obtain more




                                                                              69

OIG 07-02 Performance Audit of Privacy and Data Protection
Finding                Recommendation                        Management Status May 2010                    2010 Follow-up Audit Testing NFR
                       6b. Conduct privacy impact            information" and that the recommendation
                                                                                                           Open (Repeat finding)
                           assessments in accordance         "will require careful and deliberate
                                                                                                           Refer Finding 2. Privacy Impact Assessments Have Not Been
                           with Section 522.                 consideration by the Commission itself and
                                                                                                           Conducted on page 17.
                                                             the agency's most senior management prior
                       6c. Comply with OMB                   to any decision to implement the
                           memorandums or, in the event      recommendation here."
                           of statutory exemption,
                           document that sufficient
                           controls exist to mitigate the
                                                                                                           Open (Repeat finding)
                           need to comply. Where
                                                                                                           Refer Finding 3. Monitoring and Review of Regulatory
                           compliance is not adopted as
                                                                                                           Requirements on page 20.
                           the result of resource
                           constraints, document the legal
                           assessment, risk analysis, and
                           cost-benefit to the FEC.

7. Personnel Have      7.   We recommend that the Chief      Completed July 2008
                                                                                                           Open (Repeat finding)
Not Complied with           Information Officer take
                                                                                                           Refer Finding 7. Safeguards Over Sensitive Agency
the FEC Computer            necessary steps to ensure user
                                                                                                           Information and PII Need Improvement on page 37.
Security Policy             compliance with FEC IT
                            security policies and
                                                                                                           Open (New finding)
                            procedures.
                                                                                                           Refer Finding 13. Training Workstations on page 61.

Additional Follow-up Verification Item
Finding             Recommendation                           Management Status August 2010                 Follow-up Audit Testing NFR
Controls are not            Develop, document, and           In addition to reviewing and publishing the
adequate to ensure          implement procedures for         SORNs, many of the remaining concerns
                                                                                                           Open (Repeat finding)
the Federal Election        periodically updating the        raised in this finding and the
                                                                                                           Refer Finding 12. System of Records Notice (SORN) Updates
Commission’s (FEC)          FEC’s inventory of PII           recommendations have already been
                                                                                                           on page 57.
System of Records           (recommendation 1b of main       addressed. The FEC has finalized and
(SOR) is updated            report).                         implemented procedures for periodically




                                                                              70

OIG 07-02 Performance Audit of Privacy and Data Protection
Finding               Recommendation                     Management Status May 2010                      2010 Follow-up Audit Testing NFR
and published in        Finalize, approve, and fully     updating the FEC's inventory of personally
accordance with the     implement privacy policies,      identifiable information (in connection with
Privacy Act of 1974     procedures, and directives in    the biennial review of its systems of
and the Office of       accordance with Federal laws     records), privacy protection policies,
Management and          and regulations                  procedures, and directives and has identified
Budget (OMB)            (recommendation 3 of main        Co-Chief Privacy Officers responsible for       Open (Repeat finding)
Circular A-130          report).                         monitoring compliance with Federal and          Refer Finding 12. System of Records Notice (SORN) Updates
Appendix I.             Identify, document, and assign   FEC privacy requirements.                       on page 57.
                        roles and responsibilities for
                        monitoring compliance with
                        Federal and FEC privacy
                        requirements (recommendation
                        4c of main report)




                                                                          71

                                             ATTACHMENT 3
                                              DEFINITIONS

Personally Identifiable Information (PII): Any piece of information that can potentially be used to uniquely
identify, contact, or locate a single person. Information such as social security numbers and banking information
are generally considered sensitive.

Privacy Impact Assessment (PIA): is an analysis of how information is handled: (i) to ensure handling
conforms to applicable legal, regulatory, and policy requirements regarding privacy, (ii) to determine the risks and
effects of collecting, maintaining and disseminating information in identifiable form in an electronic information
system, and (iii) to examine and evaluate protections and alternative processes for handling information to
mitigate potential privacy risks.

System of Records (SOR): A group of any records under the control of any agency from which information is
retrieved by the name of the individual or by some identifying number, symbol, or other identifying particular
assigned to the individual.

System of Records Notice (SORN): A group of any records under the control of any agency from which
information is retrieved by the name of the individual or by some identifying number, symbol, or other identifying
particular assigned to the individual that is required to be published in the Federal register in accordance with the
1974 Privacy Act.




                                                  72

                                                  ATTACHMENT 4
Federal Register
Vol. 75, No. 216 Tuesday,

November 9, 2010
                            Presidential Documents
                            Executive Order 13556 of November 4, 2010
Title 3— The
                            Controlled Unclassified Information
President

                            By the authority vested in me as President by the Constitution and the laws of the United
                            States of America, it is hereby ordered as follows:
                            Section 1. Purpose. This order establishes an open and uniform program for managing
                            information that requires safeguarding or dissemination controls pursuant to and consistent
                            with law, regulations, and Government-wide policies, excluding information that is
                            classified under Executive Order 13526 of December 29, 2009, or the Atomic Energy Act,
                            as amended.
                            At present, executive departments and agencies (agencies) employ ad hoc, agency-specific
                            policies, procedures, and markings to safeguard and control this information, such as
                            information that involves privacy, security, proprietary business interests, and law
                            enforcement investigations. This inefficient, confusing patchwork has resulted in
                            inconsistent marking and safeguarding of documents, led to unclear or unnecessarily
                            restrictive dissemination policies, and created impediments to authorized information
                            sharing. The fact that these agency-specific policies are often hidden from public view has
                            only aggravated these issues.

                            To address these problems, this order establishes a program for managing this information,
                            hereinafter described as Controlled Unclassified Information, that emphasizes the openness
                            and uniformity of Government-wide practice.

                            Sec. 2. Controlled Unclassified Information (CUI).
                            (a) The CUI categories and subcategories shall serve as exclusive designations for
                            identifying unclassified information throughout the executive branch that requires
                            safeguarding or dissemination controls, pursuant to and consistent with applicable law,
                            regulations, and Government-wide policies.
                            (b) The mere fact that information is designated as CUI shall not have a bearing on
                            determinations pursuant to any law requiring the disclosure of information or permitting
                            disclosure as a matter of discretion, including disclosures to the legislative or judicial
                            branches.
                            (c) The National Archives and Records Administration shall serve as the Executive Agent
                            to implement this order and oversee agency actions to ensure compliance with this order.

                            Sec. 3. Review of Current Designations.
                              (a) Each agency head shall, within 180 days of the date of this order:
                              (1) review all categories, subcategories, and markings used by the agency to designate
                              unclassified information for safeguarding or dissemination controls; and

                              (2) submit to the Executive Agent a catalogue of proposed categories and subcategories
                              of CUI, and proposed associated markings for information designated as CUI under
                              section 2(a) of this order. This submission shall provide definitions for each proposed
                              category and subcategory and identify the basis in law, regulation, or Government-wide
                              policy for safeguarding or dissemination controls.

                            (b) If there is significant doubt about whether information should be designated as CUI, it
                            shall not be so designated.
                            Sec. 4. Development of CUI Categories and Policies.
                                                 73

68676 Federal Register / Vol. 75, No. 216 / Tuesday, November 9, 2010 / Presidential Documents

                         (a) On the basis of the submissions under section 3 of this order or future proposals, and in
                         consultation with affected agencies, the Executive Agent shall, in a timely manner, approve
                         categories and subcategories of CUI and associated markings to be applied uniformly
                         throughout the executive branch and to become effective upon publication in the registry
                         established under subsection (d) of this section. No unclassified information meeting the
                         requirements of section 2(a) of this order shall be disapproved for inclusion as CUI, but the
                         Executive Agent may resolve conflicts among categories and subcategories of CUI to
                         achieve uniformity and may determine the markings to be used.


                         (b) The Executive Agent, in consultation with affected agencies, shall develop and issue
                         such directives as are necessary to implement this order. Such directives shall be made
                         available to the public and shall provide policies and procedures concerning marking,
                         safeguarding, dissemination, and decontrol of CUI that, to the extent practicable and
                         permitted by law, regulation, and Government-wide policies, shall remain consistent across
                         categories and subcategories of CUI and throughout the executive branch. In developing
                         such directives, appropriate consideration should be given to the report of the interagency
                         Task Force on Controlled Unclassified Information published in August 2009. The
                         Executive Agent shall issue initial directives for the implementation of this order within
                         180 days of the date of this order.


                         (c) The Executive Agent shall convene and chair interagency meetings to discuss matters
                         pertaining to the program established by this order.
                         (d) Within 1 year of the date of this order, the Executive Agent shall establish and maintain
                         a public CUI registry reflecting authorized CUI categories and subcategories, associated
                         markings, and applicable safeguarding, dissemination, and decontrol procedures.

                         (e) If the Executive Agent and an agency cannot reach agreement on an issue related to the
                         implementation of this order, that issue may be appealed to the President through the
                         Director of the Office of Management and Budget.

                         (f) In performing its functions under this order, the Executive Agent, in accordance with
                         applicable law, shall consult with representatives of the public and State, local, tribal, and
                         private sector partners on matters related to approving categories and subcategories of CUI
                         and developing implementing directives issued by the Executive Agent pursuant to this
                         order.

                         Sec. 5. Implementation.
                         (a) Within 180 days of the issuance of initial policies and procedures by the Executive
                         Agent in accordance with section 4(b) of this order, each agency that originates or handles
                         CUI shall provide the Executive Agent with a proposed plan for compliance with the
                         requirements of this order, including the establishment of interim target dates.

                         (b) After a review of agency plans, and in consultation with affected agencies and the
                         Office of Management and Budget, the Executive Agent shall establish deadlines for
                         phased implementation by agencies.
                         (c) In each of the first 5 years following the date of this order and biennially thereafter, the
                         Executive Agent shall publish a report on the status of agency implementation of this
                         order.
                         Sec. 6. General Provisions.
                            (a) This order shall be implemented in a manner consistent with:
                            (1) applicable law, including protections of confidentiality and privacy rights;

                           (2) the statutory authority of the heads of agencies, including authorities related to the
                           protection of information provided by the private sector to the Federal Government; and

                                               74

                            Federal Register / Vol. 75, No. 216 / Tuesday, November 9, 2010 / Presidential Documents 68677

                                           (3) applicable Government-wide standards and guidelines issued by the National
                                           Institute of Standards and Technology, and applicable policies established by the Office
                                           of Management and Budget.
                                        (b) The Director of National Intelligence (Director), with respect to the Intelligence
                                        Community and after consultation with the heads of affected agencies, may issue such
                                        policy directives and guidelines as the Director deems necessary to implement this order
                                        with respect to intelligence and intelligence-related information. Procedures or other
                                        guidance issued by Intelligence Community element heads shall be in accordance with
                                        such policy directives or guidelines issued by the Director. Any such policy directives or
                                        guidelines issued by the Director shall be in accordance with this order and directives
                                        issued by the Executive Agent.

                                        (c) This order shall not be construed to impair or otherwise affect the functions of the
                                        Director of the Office of Management and Budget relating to budgetary, administrative,
                                        and legislative proposals.
                                        (d) This order is not intended to, and does not, create any right or benefit, substantive or
                                        procedural, enforceable at law or in equity by any party against the United States, its
                                        departments, agencies, or entities, its officers, employees, or agents, or any other person.

                                        (e) This order shall be implemented subject to the availability of appropriations.

                                        (f) The Attorney General, upon request by the head of an agency or the Executive Agent,
                                        shall render an interpretation of this order with respect to any question arising in the course
                                        of its administration.
                                        (g) The Presidential Memorandum of May 7, 2008, entitled ‘‘Designation and Sharing of
                                        Controlled Unclassified Information (CUI)’’ is hereby rescinded.




                                        THE WHITE HOUSE,
                                        November 4, 2010.


[FR Doc. 2010–28360 Filed
11–8–10; 8:45 am] Billing
code 3195–W1–P




                                                              75

                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
